<html>
<title> - INNOVATIVE WOOD PRODUCTS: PROMOTING RURAL ECONOMIES AND HEALTHY FORESTS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


INNOVATIVE WOOD PRODUCTS: PROMOTING RURAL ECONOMIES AND HEALTHY FORESTS

=======================================================================

                                HEARING

                               BEFORE THE

               SUBCOMMITTEE ON CONSERVATION AND FORESTRY

                                 OF THE

                        COMMITTEE ON AGRICULTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 26, 2020

                               __________

                           Serial No. 116-31


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


          Printed for the use of the Committee on Agriculture
                         agriculture.house.gov
                         
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
41-278 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------
                        
                         


                        COMMITTEE ON AGRICULTURE

                COLLIN C. PETERSON, Minnesota, Chairman

DAVID SCOTT, Georgia                 K. MICHAEL CONAWAY, Texas, Ranking 
JIM COSTA, California                Minority Member
MARCIA L. FUDGE, Ohio                GLENN THOMPSON, Pennsylvania
JAMES P. McGOVERN, Massachusetts     AUSTIN SCOTT, Georgia
FILEMON VELA, Texas                  ERIC A. ``RICK'' CRAWFORD, 
STACEY E. PLASKETT, Virgin Islands   Arkansas
ALMA S. ADAMS, North Carolina        SCOTT DesJARLAIS, Tennessee
    Vice Chair                       VICKY HARTZLER, Missouri
ABIGAIL DAVIS SPANBERGER, Virginia   DOUG LaMALFA, California
JAHANA HAYES, Connecticut            RODNEY DAVIS, Illinois
ANTONIO DELGADO, New York            TED S. YOHO, Florida
TJ COX, California                   RICK W. ALLEN, Georgia
ANGIE CRAIG, Minnesota               MIKE BOST, Illinois
ANTHONY BRINDISI, New York           DAVID ROUZER, North Carolina
JOSH HARDER, California              RALPH LEE ABRAHAM, Louisiana
KIM SCHRIER, Washington              TRENT KELLY, Mississippi
CHELLIE PINGREE, Maine               JAMES COMER, Kentucky
CHERI BUSTOS, Illinois               ROGER W. MARSHALL, Kansas
SEAN PATRICK MALONEY, New York       DON BACON, Nebraska
SALUD O. CARBAJAL, California        NEAL P. DUNN, Florida
AL LAWSON, Jr., Florida              DUSTY JOHNSON, South Dakota
TOM O'HALLERAN, Arizona              JAMES R. BAIRD, Indiana
JIMMY PANETTA, California            JIM HAGEDORN, Minnesota
ANN KIRKPATRICK, Arizona
CYNTHIA AXNE, Iowa
______

                                 ______

                      Anne Simmons, Staff Director

              Matthew S. Schertz, Minority Staff Director

                                 ______

               Subcommittee on Conservation and Forestry

               ABIGAIL DAVIS SPANBERGER, Virginia, Chair

MARCIA L. FUDGE, Ohio                DOUG LaMALFA, California, Ranking 
TOM O'HALLERAN, Arizona              Minority Member
CHELLIE PINGREE, Maine               RICK W. ALLEN, Georgia
CYNTHIA AXNE, Iowa                   RALPH LEE ABRAHAM, Louisiana
                                     TRENT KELLY, Mississippi

             Felix Muniz, Jr., Subcommittee Staff Director

                                  (ii)
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
LaMalfa, Hon. Doug, a Representative in Congress from California, 
  opening statement..............................................    38
    Prepared statement...........................................     3
Spanberger, Hon. Abigail Davis, a Representative in Congress from 
  Virginia, opening statement....................................     1
    Prepared statement...........................................     2

                               Witnesses

Goergen, Jr., Michael T., Vice President, Innovation and Director 
  P3Nano, U.S. Endowment for Forestry and Communities, Bethesda, 
  MD.............................................................     5
    Prepared statement...........................................     7
Cover, P.E., Jennifer S., President and Chief Executive Officer, 
  WoodWorks--Wood Products Council, San Marcos, CA...............    10
    Prepared statement...........................................    12
Henry, Ph.D., Joshua A., President and Co-Founder, GO Lab Inc., 
  Belfast, ME....................................................    29
    Prepared statement...........................................    31

 
INNOVATIVE WOOD PRODUCTS: PROMOTING RURAL ECONOMIES AND HEALTHY FORESTS

                              ----------                              


                      WEDNESDAY, FEBRUARY 26, 2020

                  House of Representatives,
                 Subcommittee on Conservation and Forestry,
                                  Committee on Agriculture,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 1300 of the Longworth House Office Building, Hon. Abigail 
Davis Spanberger [Chair of the Subcommittee] presiding.
    Members present: Representatives Spanberger, O'Halleran, 
Pingree, Axne, Schrier, Peterson (ex officio), LaMalfa, and 
Allen.
    Staff present: Prescott Martin III, Felix Muniz, Jr., 
Alison Titus, Josh Maxwell, Ricki Schroeder, Patricia Straughn, 
Dana Sandman, and Justina Graff.

     OPENING STATEMENT OF HON. ABIGAIL DAVIS SPANBERGER, A 
            REPRESENTATIVE IN CONGRESS FROM VIRGINIA

    The Chair. This hearing of the Subcommittee on Conservation 
and Forestry on innovative wood products: promoting rural 
economies and healthy forests, will come to order.
    Good morning. Welcome and thank you for joining us here 
today to discuss a very important topic: innovation in the wood 
products industry, and what it means for rural prosperity and 
forest health.
    America's forests are a pillar of our country's prosperity, 
delivering very important environmental, social, and economic 
benefits. Forests deliver ecosystem services that are 
irreplaceable: clean air and water, carbon storage, and 
biodiversity. They are favored places for families and 
recreation enthusiasts, and in rural areas, forests create jobs 
and underpin local economies.
    My home Commonwealth of Virginia understands this very 
well. Across Virginia's 15 million acres of forested land, 
forest-related businesses contribute $17 billion annually to 
the Commonwealth's economy, and support more than 100,000 jobs.
    At the national level, forestry-related businesses employ 
nearly three million men and women. As it relates to wood 
products, the industry accounts for approximately four percent 
of total manufacturing GDP, producing nearly $300 billion in 
products annually.
    Yet, multiple factors complicate the health of the 
industry. As markets have changed and evolved, demand for 
traditional wood products have matured or declined. Plastic, 
steel, and other materials have replaced products previously 
made exclusively from wood. The rise of digital media has 
significantly depressed newsprint and sheet paper production, 
and new residential housing, which drives strong wood markets, 
is now beginning to approach pre-crisis figures.
    With markets facing economic stagnation, the forest sector 
is looking to innovation to reinvigorate the industry and the 
future is full possibilities. Innovative wood products have the 
potential to develop new markets and strengthen local 
economies. New markets can also provide incentives for land 
managers, public and private, to implement sustainable 
management practices that fully maximize forestry's social and 
environmental benefits.
    Recent innovations in mass timber and fiber insulation for 
the construction of wood buildings are already underway. These 
inventive products offer faster construction schedules and 
lower emission profiles. Researchers are also discovering new 
ways to use wood materials, completely changing the course of 
materials science and engineering.
    An area of active research is nanotechnology. Potential 
applications for the use of nanocellulose include additives to 
create food coatings, transparent, flexible electronics, 
biomedical applications, among many other novel uses. These 
products, and more like them, are benefitting from Federal 
research conducted by the Forest Products Laboratory. 
Innovative products that aren't even on our radar yet, will 
come from investment in product development through 
opportunities like the Wood Innovation Grant Program. These 
investments are vital if our nation's forests are to remain 
bountiful and productive for their full range of environmental, 
social, and economic benefits.
    I am grateful to hear and learn from our witnesses today on 
the progress of the wood products industry, Federal support for 
these products, and to discuss the many benefits that 
innovation lends to forestry.
    [The prepared statement of Ms. Spanberger follows:]

 Prepared Statement of Hon. Abigail Davis Spanberger, a Representative 
                       in Congress from Virginia
    Good morning, welcome and thank you all for joining us here today 
to discuss a very important topic--innovation in the wood products 
industry, and what it means for rural prosperity and forest health.
    America's forests are a pillar of our country's prosperity, 
delivering very important environmental, social, and economic benefits. 
Forests deliver ecosystem services that are irreplaceable--clean air 
and water, carbon storage, and biodiversity. They are favored places 
for families and recreation enthusiasts, and in rural areas, forests 
create jobs that underpin local economies.
    My home Commonwealth of Virginia understands this well. Across 
Virginia's 15 million acres of forested land, forest-related businesses 
contribute $17 billion annually to the state's economy and support more 
than 100,000 jobs. At the national level, forestry-related businesses 
employ nearly three million men and women. As it relates to wood 
products, the industry accounts for approximately 4% of total 
manufacturing GDP, producing nearly $300 billion in products annually.
    Yet, multiple factors complicate the health of the industry. As 
markets have changed and evolved, demand for traditional wood products 
have matured or declined.

  <bullet> Plastic, steel, and other materials have replaced products 
        previously made exclusively from wood;

  <bullet> the rise of digital media has significantly depressed 
        newsprint and sheet paper production; and

  <bullet> new residential housing, which drives strong wood markets, 
        is now only beginning to approach pre-crisis figures.

    With markets facing economic stagnation, the forest sector is 
looking to innovation to reinvigorate the industry--and the future is 
full of possibilities.
    Innovative wood products have the potential to develop new markets 
and strengthen local economies. New markets can also provide incentives 
for land managers, public and private, to implement sustainable 
management practices that fully maximize forestry's social and 
environmental benefits.
    Recent innovations in mass timber and fiber insulation for the 
construction of wood buildings are already underway. These inventive 
products offer faster construction schedules and lower emission 
profiles.
    Researchers are also discovering new ways to use wood materials, 
completely changing the course of material science and engineering. An 
area of active research is in nanotechnology. Potential applications 
for the use of nanocellulose include additives to create food coatings, 
transparent, flexible electronics, biomedical applications, among many 
other novel uses.
    These products and more like them are benefiting from Federal 
research conducted by the Forest Products Laboratory. Innovative 
products that aren't even on our radar yet will come from investment in 
product development through opportunities like the Wood Innovation 
Grant Program.
    These investments are vital if our nation's forests are to remain 
bountiful and productive for their full range of environmental, social, 
and economic benefits. I am grateful to hear and learn from our 
witnesses today on the progress of the wood products industry, Federal 
support for these products, and to discuss the many benefits that 
innovation lends to forestry.

    The Chair. In consultation with the Ranking Member and 
pursuant to the Rule XI(e), I want to make Members of the 
Subcommittee aware that other Members of the full Committee may 
join us today.
    The chair would request that Members submit their opening 
statements for the record so witnesses may begin their 
testimony, and to ensure that there is ample time for 
questions.

 Prepared Statement of Hon. Doug LaMalfa, a Representative in Congress 
                            from California
    Good morning, and welcome to today's Conservation and Forestry 
Subcommittee hearing.
    Our nation's forests are a great natural resource, and today we 
will examine how innovative wood products can lead to healthy and 
productive forests and improve rural economies.
    Forest lands--whether they are Federal, state, or private--are 
vitally important for many rural areas. Aside from the timber they 
produce, our forests also provide recreational opportunities and serve 
as economic drivers for the communities that surround them.
    Once this timber is harvested, the forest products industry can use 
innovative approaches to create products including paper, packaging, 
construction material, and a variety of other items that we use on a 
daily basis.
    The forest products industry directly employs over 900,000 people 
and accounts for about 4% of the total U.S. manufacturing GDP. Until 
recently, there was a decline in the amount of timber harvested on 
Federal lands. As timber harvest decreased, the number of jobs and 
local businesses connected to this natural resource also decreased.
    I would be remiss if I didn't mention the work that we did in the 
2018 Farm Bill to foster innovation within this industry and promote 
new markets for products. The 2018 Farm Bill included the Timber 
Innovation Act that established a research and development program to 
help advance tall wood building construction in the United States.
    The 2018 Farm Bill also provided the Forest Service with tools to 
improve management of forest lands and allowed more partners to help 
with these activities; however, I believe we can do more to ensure we 
have healthy National Forests, and that they provide economic growth 
for our rural communities through innovative forest products.
    One of the innovative wood products we will hear about today is 
mass timber--a large wood panel composed of smaller materials. While 
using mass timber may be a relatively new approach to building in the 
United States, Europe and Canada have been using mass timber for over 2 
decades.
    One example of mass timber that is proving to be effective is 
Cross-Laminated Timber (CLT). CLT and other mass timber products are 
sustainable, effective alternatives to traditional structural materials 
such as steel or concrete. In addition, mass timber projects can be 
built quicker and require less on-site labor than the use of 
traditional materials.
    While there are several benefits to using mass timber, there remain 
some challenges including regulatory hurdles and a poor perception 
within the construction industry.
    Another innovative wood product worth mentioning is biochar, a 
porous carbon substance that is created from burning wood in the 
absence of oxygen. Biochar has many uses including to improve soil 
health and reduce invasive species growth.
    These are just a couple examples of the outstanding work the forest 
products industry is doing to bring jobs and economic growth to the 
rural areas of our nation.
    We have a great panel of witnesses before us today, and I am 
looking forward to having a productive discussion and learning more 
about other examples of innovative products, including insulation and 
nanomaterials.
    Thank you to the witnesses for taking time to be here, and to Chair 
Spanberger for calling this vitally important hearing.
    I yield back.

    The Chair. I would like to welcome our witnesses today. 
Thank you for being here.
    It is my pleasure to introduce Mr. Michael Goergen, Vice 
President of Innovation and Director of P3Nano at the U.S. 
Endowment for Forestry and Communities. Michael joined the 
Endowment in 2013 and is currently focused on taking cellulosic 
nanotechnology from the lab to commercialization, advancing 
mass timber construction, and is bringing together partners in 
the public- and private-sectors. Prior to joining the 
Endowment, Michael served as the Executive Vice President and 
CEO of the Society of American Foresters.
    Our next witness is Ms. Jennifer Cover. Ms. Cover serves as 
the President and CEO of WoodWorks, a nonprofit program focused 
on growing the market demand for wood products through project 
support and education. She is a California licensed 
professional engineer, and taught timber design at the 
University of California, San Diego, for 8 years. She holds a 
master's degree from the University of California Berkeley, and 
her experience includes business development, market analysis, 
project management, and structural design, all with an emphasis 
on wood construction.
    I would now like to recognize the gentlewoman from Maine, 
Representative Chellie Pingree, to introduce our next and final 
witness.
    Ms. Pingree. Thank you very much, Madam Chair. Thank you so 
much for holding this hearing, particularly coming from the 
State of Maine, the most forested state in the nation, our 
state has been dealing with a lot of the challenges in the 
transition in this industry. We are really excited to have all 
of the panelists here today.
    But, we are particularly excited to have someone from 
Maine, Joshua Henry, the President and Co-Founder of GO Lab, a 
building products company that is based in Belfast, Maine.
    Prior to founding GO Lab, Mr. Henry served as a faculty 
member in the chemistry department of Bates College and the 
University of Maine. He is a part of producing a very exciting 
insulation product that we predict some day will be in every 
home and every commercial building across the country. You are 
all lucky to be in on the ground floor to hear more about it 
today.
    But thank you so much for taking your time, Dr. Henry, to 
come spend some time with us here today, and we look forward to 
your testimony.
    I yield back.
    The Chair. We will now proceed with hearing from our 
witnesses. Each of you will have 5 minutes to present 
testimony. When the light turns yellow, that indicates there is 
1 minute remaining to complete your testimony.
    Mr. Goergen, please begin when you are ready.

     STATEMENT OF MICHAEL T. GOERGEN, Jr., VICE PRESIDENT, 
INNOVATION AND DIRECTOR P3NANO, U.S. ENDOWMENT FOR FORESTRY AND 
                   COMMUNITIES, BETHESDA, MD

    Mr. Goergen. Thank you, Chair Spanberger, Ranking Member 
LaMalfa, and Members of the Committee. Thank you so much for 
the opportunity to testify on innovation in sustainable forest 
products.
    I am Michael Goergen, Vice President for Innovation at the 
U.S. Endowment for Forestry and Communities. The Endowment is a 
not-for-profit public charity chartered at the request of the 
governments of the U.S. and Canada as a result of the Soft Wood 
Lumber Agreement of 2006. The Endowment is focused on keeping 
forests as forests, and supporting the communities that depend 
upon them.
    I am focused on innovation in forest products because 
markets bring value to forests, and we keep things that we 
value.
    Developing new markets, displacing current technology, 
getting people to think differently about forest products, 
these are daunting challenges for the forest sector. While we 
have solutions that solve many of today's environmental 
challenges, getting them to market requires overcoming many 
obstacles. At the Endowment, we are finding opportunities to 
bring together scientists from the USDA Forest Service and 
their research and development program, state and private 
forestry, and the National Forest System, university 
researchers, and the private-sector to accelerate the 
commercial readiness of a number of the innovative forest 
products that we are talking about today, including mass timber 
construction, low value products that utilize forest 
restoration materials, and one of the most exciting 
opportunities, cellulosic nanomaterials.
    We are finding incredible applications for cellulosic 
nanomaterials. They are made from the tiniest parts of the 
tree. These are a new class of materials valued for their 
mechanical properties, their sustainability, their large-scale 
production potential, and their low cost.
    At the nano-scale, about \1/100\ of the width of a human 
hair--and we can look at Jennifer to see what hair looks like--
cellulose has really novel properties. When we get the nano-
scale for many materials, strange things start to happen. For 
example, nano gold is actually no longer that golden color. It 
is red or pink. In the case of cellulose, we can produce a 
material that is as strong as steel, but it is only \1/5\ of 
the weight of steel.
    Examples include researchers at the University of Maine who 
are working on several innovative products. One scientist and 
his team are developing a replacement for gypsum board that was 
made from sawdust and cellulosic nanofibers that act as the 
binding agent. This new type of board will be lighter weight, 
will not have chemical additives associated with negative human 
health, and will have greenhouse gas emission profiles 
significantly lower than traditional products. Another 
researcher at Maine is actually developing a replacement snack 
package that would be fully recyclable and biodegradable. That 
means no more potato chip bags in the forest, in your streams, 
or on the sides of our roads.
    Researchers are investigating an improvement to lithium ion 
battery technology that could be theoretically double the 
storage capacity of lithium ion batteries. Imagine doubling the 
range of current electric vehicles. And we can make those 
electric vehicles lighter by coating fiberglass with cellulosic 
nanomaterials, making that fiber stronger. That stronger fiber 
means we can put less of it in the car part, making those auto 
parts weigh about 20 percent less.
    Another interesting application for cellulosic 
nanomaterials involves concrete. People use 4 trillion tons of 
concrete worldwide, but concrete is also the source of about 
five to eight percent of the world's greenhouse gas emissions 
because it takes a lot of energy to make concrete. To make the 
cement component, we actually heat limestone rocks up to about 
2,600 Fahrenheit, which takes, of course, a lot of energy. And 
of course, that produces greenhouse gas emissions. But the rock 
itself actually has stored carbon in it, and when we heat that 
rock up, that carbon gets released as well.
    If we could reduce the amount of cement in concrete, we 
could actually have a real environmental win, and that is where 
cellulosic nanomaterials can actually help. When we add tiny 
amounts of this material to the mix, we can actually reduce the 
emissions from concrete by about 18 to 20 percent.
    It is interesting. Concrete requires near complete 
hydration. The challenge being that it is not always easy to 
get that exactly right. What nanocellulose does is it acts like 
a straw when it gets into that concrete mix. I am sure many of 
you have made pancakes from a mix before. You mix that pancake 
around, you get those dry lumps in the pancake, and they never 
seem to break up, even though you added all that milk and eggs. 
Same thing happens in cement. But the nanocellulose carries the 
water all the way through the cement and actually hydrates all 
those particles, meaning we get a stronger cement.
    What does that mean? We can have stronger concrete, which 
is fantastic, or we can reduce the amount of cement in 
concrete, which would reduce our greenhouse gas emission 
profiles from that concrete. A 20 percent reduction may not 
seem like a lot, but for a 4 trillion ton product that is used 
worldwide, it is a significant improvement.
    We are collaborating in a town in California called Yreka. 
It is northern California at the foot of Mount Shasta, and 
wildfire is a real threat there. The community wants to remove 
the small dying and dead trees that are there that are choking 
the forest, but it is expensive to do. These trees have little 
to no commercial value, and they can't pay their way out of the 
woods. Cellulosic nanomaterials are emerging as a new market 
for low value wood, a market that will make it economical to 
improve forest health, protect that town, and create jobs.
    Together, we are going to put the world's first concrete-
enhanced nanomaterial bridge in Yreka this spring. The town is 
going to help us out, and together we are going to build a 
better infrastructure, a better community, and a cleaner, 
greener world.
    Thank you for the opportunity to testify today.
    [The prepared statement of Mr. Goergen follows:]

    Prepared Statement of Michael T. Goergen, Jr., Vice President, 
    Innovation and Director P3Nano, U.S. Endowment for Forestry and 
                             Communities, 
                              Bethesda, MD
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Committee, thank you for the opportunity to testify on this issue of 
importance to all Americans--Innovation in sustainable forest products 
that promote rural economies and forest health.
    I have been with the U.S. Endowment for Forestry and Communities 
(the Endowment) for more than 6 years where I have focused on bringing 
innovation to the forest sector and accelerating the commercialization 
of those innovations. Prior to that, I served as the CEO of the Society 
of American Foresters, the professional society representing foresters 
in the United States.
    While each organization is unique, we find few organizations with 
roots that compare to those of the Endowment. We are a not-for-profit, 
public charity chartered at the requests of the governments of the U.S. 
and Canada as a result of the Softwood Lumber Agreement of 2006. That 
long-running dispute over softwood lumber production and its export/
import, in this instance, led to what we believe is the only time in 
the world when a not-for-profit was created and funded as a result of a 
trade settlement between two sovereign governments.
    The Endowment was granted a one-time $200 million perpetual 
endowment with interest and earnings to be dedicated to sustainable 
management of forests and economic vibrancy of the rural communities 
nested within or adjacent to those forests. We are a catalyst for 
innovation that invigorates forest-rich, rural communities by keeping 
working forests as forests for all their environmental, societal, and 
economic benefits and values. The Endowment works collaboratively with 
partners in the public- and private-sectors to advance systemic, 
transformative and sustainable change for the health and vitality of 
the nation's working forests and forest-reliant communities.
    The forest sector represents a $300 billion/year economic impact in 
the U.S. and directly employs nearly one million people. As this 
Committee is aware, many of the forests that sustain this sector are in 
trouble. Almost \1/4\ billion acres--fully \1/3\ of our forestland is 
at risk of catastrophic wildfire. Forests are also under threat from 
insects and diseases. Invasive species infest almost 40 percent of 
forested acres. Therefore, we focus on creating markets. When there is 
demand for forest products, the costs of restoring forest health is 
significantly less as we can conduct management actions that improve 
forest health and pay for that work by selling the byproducts of those 
efforts for various uses. Markets bring value to forests, and we keep 
things we value.
    Some people think that harvesting trees is inherently a bad thing, 
but that is just not true. If we sustainably manage our forests, we all 
benefit. A recent study of forests in the southern U.S. concluded that 
as demand for forest products increased over the past 50 years, 
landowners responded by keeping their land and more than doubling their 
forests' productivity. The ability to build wealth from forestlands 
encourages investment in forests resulting in multiple benefits to all 
stakeholders and constituents. By demonstrating economic value 
creation, we reduce the incentive to convert our forests to other uses. 
Markets, old and new, are vitally important to sustaining forests.
    Developing new markets, displacing current technology, getting 
people to think differently about forest products, these are daunting 
challenges for the forest sector. While we have solutions to many of 
today's environmental challenges, getting them to market requires 
overcoming many obstacles. At the Endowment, we are finding 
opportunities to bring together government scientists, university 
researchers and the private-sector to accelerate the commercial 
readiness of a number of innovative forest products including mass 
timber construction, low value products that utilize forest restoration 
materials, and one of the most exciting opportunities, cellulosic 
nanomaterials (CN).
The Potential of Cellulosic Nanomaterials
    We are finding incredible applications for cellulosic nanomaterials 
made from the tiniest parts of trees. These materials will play a vital 
role in solving challenges facing the planet. Cellulosic nanomaterials 
(CN) are a new class of materials valued for their mechanical 
properties, sustainability, large-scale production potential, and low 
cost. At the nano-scale--about <SUP>1</SUP>/
<INF><INF>1<INF>0<INF>0,<INF>0<INF>0<INF>0</INF> the width of a human 
hair--cellulose has novel properties. To give context the head of a pin 
is 1 million nanometers wide, and we can make crystals of CN that are 
just 6 nanometers wide. When we get to the nano-scale for many 
materials, strange things start to happen. For example, nano gold is no 
longer a golden color, it can be red or pink. In the case of cellulose, 
these nanomaterials are as strong as steel with only \1/5\ of the 
weight. Making these materials is like making paper, yet more refined. 
Once we have the CN, they can be used in numerous material applications 
previously closed to forest products.
    Some other nanomaterials have incredibly exciting properties but 
are just not ready for commercialization as they have only been 
produced at very small scales. That is not a challenge for cellulosic 
nanomaterials. While some nanomaterials are talked about in gram 
quantities, we can produce tons of cellulosic nanomaterials. Safety has 
also been a primary concern. Researchers at Virginia Tech, American 
University, Oregon State University, Rice University and others are 
studying the environmental and human health impacts of these materials 
and have many encouraging findings. In fact, the Endowment led a 
consortium that pooled together the resources of several industrial 
partners to conduct the research necessary to obtain Food and Drug 
Administration (FDA) reviewed generally regarded as safe status (GRAS). 
We submitted the necessary notification to FDA earlier this month.
    Adding cellulosic nanomaterials to auto parts will make them 
stronger yet lighter resulting in improved gas mileage and reducing 
greenhouse gas emissions. A researcher at Georgia Tech is working on 
reinforcing fiberglass-based auto parts with cellulosic nanomaterials 
achieving 18-20 percent weight reductions with minimal additions of CN. 
Researchers at Michigan State University are making packaging that 
behaves like plastic but is a 100 percent biobased material that is 
fully biodegradable. Researchers at Purdue University can make lighter-
weight bullet-proof glass from CN. Flexible microchips are being made 
at the University of Wisconsin and are projected to be much lower cost 
than competing materials.
    Researchers at the University of Maine are working on several 
innovative products. One scientist and his team are developing a 
replacement for gypsum board that would be made from saw dust and CN 
fibers that act as the biding agent. This new type of board will be 
lighter weight, will not have chemical additives associated with 
negative human health, and will have greenhouse gas emission profiles 
significantly lower than products currently on the market. Another 
researcher at Maine is developing a replacement snack package that 
would be fully recyclable and biodegradable. Imagine no more potato 
chip bags by the side of the road, in our forests, or our streams.
    CN can be used in 3D printers, reducing the use of plastics and 
opening new applications in the biomedical field as these materials are 
biocompatible. CN materials have the power to block the sun. Using 
these findings researchers are exploring topical sunscreen applications 
that will not absorb into the human body. Since CN is benign in the 
environment, a sunscreen produced from these materials can eliminate a 
known impact to marine ecosystems. Researchers are investigating 
improvements to lithium ion battery technology that could theoretically 
double storage capacity. Imagine doubling the range of current electric 
vehicles using a sustainable, renewable forest product.
    Another interesting application for cellulosic nanomaterials 
involves concrete. Gravel, sand and cement are the basic ingredients of 
concrete. We use it everywhere. Four trillion tons worldwide, in fact. 
But concrete is the source of five to eight percent of the world's 
greenhouse gas emissions because it takes a lot of energy to make 
cement. To make cement, one must first heat limestone to more than 
2,600 Fahrenheit, which takes a lot of energy, which produces 
greenhouse gas emissions. That hot rock itself releases even more 
emissions from the carbon stored within. Since the world uses so much 
concrete, even a small reduction in greenhouse gas emissions can go a 
long way. That is where cellulosic nanomaterials can help. When we add 
a tiny amount of this material to the mix, we can reduce emissions from 
concrete production by 18 to 20 percent.
    Concrete requires near complete hydration, without going too far. 
If concrete is made with too much water, it will crack; not enough 
water and it won't be strong enough. Adding just one percent cellulosic 
nanomaterials increases the hydration of concrete. The CN acts like a 
straw and carries water more completely through the concrete mixture. 
Think about pancake batter. Pancake mix often has dry lumps even after 
adding liquids. One might expect after adding milk and eggs the dry 
ingredients would mix in easily. But, for some reason they don't. 
Something similar happens in concrete; yet, by adding CN we get better 
hydration. This increased hydration makes the mix 18 to 20 percent 
stronger. We can have stronger concrete, and since cement is the 
largest source of CO<INF>2</INF> emissions from concrete, we can reduce 
the amount of cement by about 18 to 20 percent and we significantly 
reduce CO<INF>2</INF> emissions.
Public-Private Partnerships
    Listening to all these exciting end use applications for CN, you 
may be wondering is there anything you can't make from CN? There may be 
some things we cannot make as cost effectively, but we truly can make 
almost anything from forest products. At the Endowment we are 
overcoming the obstacles to commercialization by bringing together a 
public-private partnership to advance this technology. Absolutely none 
of the progress mentioned would be possible without the financial, 
technical and scientific contributions provided by the men and women of 
the USDA Forest Service, and more specifically, the agency's Forest 
Products Laboratory (FPL). Together with FPL we have formed a public-
private partnership known as P3Nano that is combining the strengths of 
the premier Federal laboratory working on forest products with leading 
researchers and the companies that are making these products. Together 
we are exploring ways to ensure safety, reduce the costs of production 
and explore end use applications that leverage the unique properties of 
CN. The advances made would not be possible without the contributions 
of the Forest Service.
    Government research is critical at so many stages of the scientific 
process, but it is even more critical when it comes time to overcome 
what is known as the valley of death. When scientists make new 
discoveries that hold great promise there is often initial interest in 
funding that explores the potential of the discovery. There is often 
funding available when that product is ready for commercialization. The 
valley of death in between is often short of resources to take that 
initial discovery to successful commercial products. P3Nano is working 
hard to bridge that valley, trying to ensure that the most promising of 
these applications make it to your home to improve your life. It is 
incredibly hard work and would not be possible without the 
contributions of the USDA Forest Service and their Research and State & 
Private Forestry programs.
Mass Timber
    Mass timber is another area where the Endowment is collaborating 
with partners to build the market for these innovative forest products. 
In December 2018, the International Code Council voted to allow wood 
structures as tall as 18-stories from the current six-story limit. What 
makes these buildings possible--and safe--is cross-laminated timber 
(CLT) and its kin: nail- and dowel-laminated timber, mass plywood 
panels, and laminated veneer lumber. All these mass timber engineered 
wood products use the same principle as plywood. Laminating layers of 
wood with the fibers at right angles creates a strong material with 
good acoustic, seismic, thermal, and fire performance.
    Getting a code change that allows for 18-stories took a concerted 
effort by, among others, the USDA Forest Service (through collaborative 
efforts of its State & Private Forestry as well as Research and 
Development divisions), the American Wood Council (which promotes the 
use of wood through regulatory and public policy efforts), the Softwood 
Lumber Board (a ``commodity check-off'' research and promotion program 
initially envisions by the Endowment), WoodWorks (a nonprofit industry 
program focused on education and project support) and the U.S. 
Endowment for Forestry and Communities as well as a host of others. 
Building more and taller buildings from wood has numerous benefits. 
Tall wood buildings sequester carbon. Steel and concrete based 
buildings have significant CO<INF>2</INF> emissions. More use of forest 
products brings more value to those products and the forests that grow 
them. More value in the forest provides landowners with incentives to 
keep their forests as forests and sustainably manage them. More value 
for forest products makes it easier for the USDA Forest Service to 
reduce forest health threats as the management activities often produce 
lower value material needing a market. Innovation in forest products 
will help create the markets we need to more fully restore forest 
health across all our forest lands.
Torrefaction
    At the Endowment we are constantly on the search for innovation in 
forest products. Torrefied wood is an innovation that allows for the 
lowest value material to find a home in markets that will make a 
difference. Torrefied wood is a process where wood is roasted at 
relatively low temperature in a low oxygen environment. The resulting 
material has significant advantages over the raw biomass used in the 
process. Torrefaction reduces moisture, increases energy density and 
develops a product that stores and transports far better than untreated 
biomass eliminating some of the logistical hurdles that make low value 
biomass from restoration efforts a little more valuable.
    The Endowment's Restoration Fuels project in John Day, Oregon is 
the first, commercial scale torrefaction facility in the U.S. and the 
last stage in the Endowment's and its collaborators' efforts to 
commercialize this technology. In addition to proving the technology, 
this effort is designed to help open a large-scale market for forest 
restoration residuals and open the door to development of additional 
carbon products that can be produced from thermo-chemical treatment of 
biomass. This facility will not only serve to help develop the utility 
market for an advanced renewable fuel, it will serve as a test bed for 
other companies through our collaboration with the Forest Products 
Laboratory, the National Renewable Energy Lab and over a dozen research 
institutions around the country.
Summary
    We are collaborating in Yreka, a small town in northern California 
at the foot of Mount Shasta. Wildfire is a real threat there, so the 
community wants to remove some of the small, dying and dead trees that 
are choking the forest, but that is expensive to do. These trees have 
little to no commercial value, so they cannot ``pay their way'' out of 
the woods. Cellulosic nanomaterials are emerging as a new market for 
low value wood, a market that will make it economical to improve forest 
health, protect the town, and create jobs. The people of Yreka see the 
possibilities, so they plan to install the first bridge deck in the 
world reinforced with cellulosic nanomaterials. Later this spring, 
community volunteers will conduct a test of this reinforced concrete. 
We will bring the concrete truck, they will pour the concrete, and all 
of us will be working together to build not just better infrastructure 
and a better community but a better, cleaner, greener world. To show 
our commitment to these efforts the Endowment conducted the largest 
commercial application of cellulosic-infused concrete when we replaced 
a more than 40 year old asphalt parking lot at our headquarters in 
Greenville, SC. The results are real.
    Cellulosic nanomaterials, and other innovative forest products are 
going to make an impact. They will be part of flexible electronics, 3D 
printing, more sustainable packaging, new-age composites for everything 
from tennis rackets to rockets. We will build tall buildings with wood, 
provide markets for the byproducts of forest restoration, and reduce 
CO<INF>2</INF> emissions from several industries. Forest products are 
going to contribute to a sustainable future, and it all comes back to 
trees and the forest. Markets like cellulosic nanomaterials, mass 
timber and others can help us demonstrate the known value of forests. 
When we value forests, we keep them instead of converting them for 
development, and we are encouraged to promote long-term stewardship of 
those forests. Good stewardship reduces risks from catastrophic 
wildfire, insects and diseases. It promotes the health of our 
watersheds and the sustainability of our planet. Even the tiniest bits 
of them can make a giant contribution. Thank you for the opportunity to 
testify before the Committee.

    The Chair. Thank you, Mr. Goergen. We appreciate your 
comments.
    Ms. Cover, you may begin.

   STATEMENT OF JENNIFER S. COVER, P.E., PRESIDENT AND CHIEF 
              EXECUTIVE OFFICER, WoodWorks--WOOD 
                PRODUCTS COUNCIL, SAN MARCOS, CA

    Ms. Cover. Thank you. Good morning, Chair Spanberger, 
Ranking Member LaMalfa, and Members of the Subcommittee. I 
appreciate the opportunity to be here today to testify about 
innovative wood products. I would like to start by thanking the 
Committee for enacting the Timber Innovation Act in the 2018 
Farm Bill.
    As mentioned in the introduction, I lead the WoodWorks 
program, which is a nonprofit entity that removes barriers to 
wood utilization commercial construction. We have provided 
assistance on about 700 mass timber projects that have utilized 
mass timber for some aspect of their design, and we have done 
this for no cost, because we are a nonprofit entity. We also 
provide about 300 educational opportunities throughout the U.S. 
annually, which helps architects and engineers become more 
familiar with designing with this type of material.
    WoodWorks is a true public-private partnership in that 
industry funding matches government funding at about a 3:1 
ratio. Our primary industry funder is the Softwood Lumber 
Board, an agricultural check off program, and our primary 
government funder is the U.S. Forest Service. Chief Christensen 
has been a huge key supporter of the WoodWorks program, and 
together, we have accomplished some amazing things, including 
opening up an entire new market for wood products in blast 
resistant design.
    I would like to draw your attention today to the importance 
of supporting the use of innovative wood products in the built 
environment. Let's start with what these products are. Mass 
timber products are large structural panel members that can be 
30' to 60' in length. For example, a floor system that can be 
just dropped right into place on a construction site. And these 
materials are made up of much smaller diameter materials, 
whether it is veneer or 2x's or 1x's that are built up and 
not--these typically come from smaller diameter trees, and that 
is really where the win-win situation comes from in terms of 
forest health and end-use construction benefits.
    Why are these products important? First, from a forest 
health perspective, mass timber has the ability to change the 
conversation around landscape restoration efforts. Mass timber 
can help keep our private lands forested because it creates a 
new--sort of a brand-new market that is high value for the 
materials coming off of our forests. Additionally, on our 
public lands, it creates a new opportunity that is an 
economical driver to help increase the cost recovery for the 
Forest Service on their restoration projects. Additionally, 
mass timber manufacturing will create new high-tech jobs in 
these rural communities, and this could really change the face 
of some of these communities. These manufacturing facilities 
will offer opportunities such as computer and software 
engineering related to CAD and building information modeling, 
and that provides opportunities that aren't typically in these 
types of areas.
    Another significant benefit of building with mass timber is 
the carbon sequestration attributes of the material. I have 
included an example in the testimony packet here today of the 
87,000'\2\ building on the campus of UMass Amherst, and on this 
project, we calculated the carbon impact of using innovative 
wood products instead of alternative more fossil fuel-intensive 
materials, and we found that it was equivalent of being able to 
pull over 500 cars off the road for an entire year. If we think 
about this, it is scale. This is one building, and taking this 
to scale, it is really quite impressive what the impact could 
be.
    I have touched on the clear tangible benefits to our 
society, the improved forest health, the carbon reduction in 
our atmosphere, as well as increased and better jobs for rural 
communities. But what is driving the uptake of mass timber in 
the marketplace is really the benefits from the design 
community's perspective, and this includes the renewability of 
the material, the aesthetic appeal, the speed of construction, 
being the three main ones.
    The opportunity that we are looking at is about 17,000 
projects are built every year in the U.S. that do not utilize 
wood construction, but there is really no code limitation on 
those buildings. Those buildings could be wood by the building 
code requirements. The only thing really keeping these 
buildings from being built in wood is perception and education. 
Mass timber is relatively new in the U.S., but internationally, 
this is not a new material. It has been around for 30 years. 
One manufacturer in Europe had told us that last year alone, 
they supplied 500 projects with cross-laminated timber. And to 
put that in perspective, here in the U.S., we had 38 projects 
go to construction utilizing cross-laminated timber last year. 
We are just at the very beginning of this building revolution 
here in this country.
    WoodWorks has been working hard to identify and resolve 
hurdles to market adoption, and having the support of the 
agricultural check off program and the U.S. Forest Service has 
been really critical to our success.
    In conclusion, I would love to see our legislative leaders 
commit to a more sustainable built environment. I would like to 
ask each of you to consider taking the lead by building 
government structures in your states using mass timber. 
WoodWorks will be there as a resource to help those design 
teams along at no cost.
    Thank you for your time and consideration this morning.
    [The prepared statement of Ms. Cover follows:]

  Prepared Statement of Jennifer S. Cover, P.E., President and Chief 
  Executive Officer, WoodWorks--Wood Products Council, San Marcos, CA
Introduction
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Subcommittee, thank you for the opportunity to submit testimony to you 
today about innovative wood products. My name is Jennifer Cover and I 
serve as the President and CEO of WoodWorks. I would like to start by 
thanking the Committee for enacting the Timber Innovation Act in the 
2018 Farm Bill.
    WoodWorks is a nonprofit entity that provides project support to 
the design and construction community that is seeking a more 
sustainable way to design. At no cost, we help engineers, architects, 
developers and general contractors navigate both the design and 
construction process when using innovative wood structural systems. 
Last year alone we provided technical assistance on over 350 building 
projects, helping designers successfully construct offices, schools, 
hotels, and commercial projects using innovative wood solutions. We 
also offer over 300 educational opportunities annually around the 
country.
    WoodWorks is a true public-private partnership where industry 
matches government funding on a 3:1 ratio. Our primary industry partner 
is the Softwood Lumber Board, an agricultural check off program funded 
by the softwood lumber industry. Our second key funding partner is the 
U.S. Forest Service. Chief Christiansen has been a huge champion and 
supporter of the WoodWorks program and we have made some amazing 
advancements with their support.
Why Innovative Wood Products in the Built Environment?
    Mass Timber products are large wood structural panel members, like 
a 30' long floor panel that can simply be dropped into place. These 
large panels are built up from much smaller materials which is what 
creates this incredible win-win situation with forest health and end-
use construction benefits. A few of the materials that are considered 
mass timber are CLT--cross laminated timber, NLT--nail laminated timber 
and DLT--dowel laminated timber.
Improved Forest Health
    Mass timber has the ability to change the conversation around 
landscape restoration efforts. Mass timber usage creates additional 
market demand for multiple products, which in turn keeps private 
forests as forests, and makes a greater percentage of forest-types 
economical. That can, in some regions, lead to better cost recovery on 
restoration projects, such as those that are a focus of the Forest 
Service to reduce the risk of wildfires. There are a few manufacturers 
that are currently exploring the use of alternative species such as 
Ponderosa Pine or that are looking at the inclusion of insect damaged 
materials and both are showing promising results. These types of 
advancements can start to create a high-value end-use market for 
materials that have historically been of low value.
    WoodWorks is working with the Forest Service to trace material from 
restoration thinning on a National Forest through the manufacturing 
process and into a completed wood building.
    WoodWorks has just started to engage in the French Meadows 
projects, a unique partnership between the Forest Service, The Nature 
Conservancy, Placer County Water Agency and numerous others, on the 
Tahoe National Forest. We are working to identify ways in which 
material coming out of the forest can find its way into mass timber. 
Tree species in the Sierra Nevada are currently being tested to confirm 
that they meet the criteria of use in mass timber. Should the results 
of this testing go as expected, it has the potentially to open up a 
significant volume of lumber for use in mass timber in an area where 
there is a significant need for forest management.
Increased and Improved Rural Jobs
    Additionally, mass timber manufacturing will create high tech jobs 
in rural communities which could change the face of some of these 
communities by offering opportunities that are not currently an option 
in some of these areas. Such as computer and software engineering roles 
for CAD and building modeling as well as building layout.
Carbon Sequestration
    Another significant benefit of building with mass timber is the 
carbon sequestration attributes of the material. As a tree grows it 
sucks carbon dioxide out of our air and locks it into the wood fiber 
where it remains stored for the lifetime of the building which is 
typically more than 3 or 4 decades and even longer if the material is 
reclaimed or re-used. Meanwhile, the regenerating forest continues the 
cycle of carbon absorption. Additionally, wood products typically 
require less embodied energy to manufacture than other building 
materials, and most of that comes from renewable biomass (e.g., bark 
and other residual fiber) instead of fossil fuels. Substituting wood 
for fossil fuel-intensive materials is a way of avoiding GHG emissions. 
Life cycle assessment (LCA) studies consistently show that wood 
outperforms other materials in this area (Sathre and O'Connor, 2010). 
When using a carbon calculator to evaluate the environmental impact, we 
often see that the use of wood as opposed to a more highly fossil fuel 
intensive material in a typical 100,000'\2\ multifamily project can 
have the environmental carbon impact equivalent to pulling 500 cars off 
the road for an entire year. A specific example is for the 87,000'\2\ 
student building at the UMass Amherst, we calculated that that the use 
of innovative wood products had the environmental carbon impact 
equivalency to pulling 535 cars off the road for a year. When you think 
about the impact of this at scale, it is quite impressive. Especially 
when you consider that this benefit is currently often overlooked but 
something we are now actively educating about.
Market Drivers
    I have touched on the clear tangible benefits to our society--
improved forest health, reducing the carbon in the atmosphere and 
increased as well as better jobs for rural communities, but what is 
driving the uptake of mass timber in the marketplace is the benefit 
from the design community's perspective.
    The key market drivers from the design community's perspective are:

  1.  Renewability: It is the only renewable and sustainable building 
            material that is literately grown by the sun and acts like 
            a sponge sucking carbon dioxide out of our air.

  2.  Aesthetic appeal: owners are finding mass timber office buildings 
            are renting quicker and at premium rates. Additionally, 
            there is scientific evidence linking exposed wood to 
            healthier work and learning environments.

  3.  Speed on construction: Most projects are finding that mass timber 
            projects can be built on average 25% faster than projects 
            built with what would be considered more traditional 
            materials. Please see attached case study Candlewood Suites 
            for more specific information. In this project the 
            structural system went up 37% faster and the overall 
            project was 20% faster than their historical projects with 
            traditional materials.

  4.  Field labor shortages and safer working conditions: The 
            construction industry today faces labor shortages. Since 
            much of the work for mass timber buildings is done in a 
            factory the labor is shifted to a controlled environment 
            and there are fewer laborers needed on site.

  5.  Elevated structural performance: mass timber is a lighter and 
            more ductile material so [it] performs better in earthquake 
            and high wind situations

    Building owners are achieving all these benefits for similar or 
less overall costs--this is why WW has already helped on almost 700 
projects using MT for some aspect of their design.
Mass Timber Projects In Design and Constructed in the U.S.
(December 2019)
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This has been an exponential growth experience. WW hosted the first 
CLT symposium in 2013 and that year we had a half a dozen designers 
reach out to us to try a project, now just 7 years later we are helping 
on 458 projects.
    The only thing keeping buildings from being built in wood is 
perception and education. To put U.S. mass timber momentum in 
perspective--if I just pull CLT, there were 38 CLT buildings 
constructed last year in the U.S. And if we look to Europe, one 
manufacturer alone supplied over 500 projects to a region not much 
larger than Texas. There are 17,000 buildings that are currently being 
built annually within the building types that WoodWorks focuses on. 
These buildings are currently being constructed with materials that are 
more fossil fuel-intensive than wood and all those buildings could be 
built using wood by code. There is an incredible conversion opportunity 
in front of us.
Hurdles
    The role of WoodWorks is to provide project level support but also 
to identify hurdles to market adoption and remove them.
Blast Testing
    When we realized that wood was cut out of all conversations on 
military projects because of weak performance in blast applications, 
WoodWorks set out on a joint project using funds authorized by the 
Timber Innovation Act with the FS to remove that hurdle. We conducted 
blast testing at Tyndall [Air F]orce [B]ase and are now working with 
the PDC to get the new guidelines written into the military building 
code. This opens an entire new market for mass timber solutions, and we 
aren't stopping there. Our next step is to help with the application 
and to work with those designing military projects to educate them on 
these new opportunities.
General Contractor Resistance
    Another hurdle we ran across was with the general contractors and 
installers of mass timber. Often the architect, engineer and building 
owner were all extremely excited to move forward with an innovative 
wood solution and it would be the general contractor that would be 
reluctant. The response was often, that they were unfamiliar with the 
material, they did not know how to price the job, how to sequence their 
sub-contractors or how to handle the material. With the support of the 
FS we launched an educational program within a year of conceiving the 
vision and I am proud to say that our first workshop in Seattle sold 
out within the first 2 weeks and we had to move it to a larger venue 
where it sold out again.
Engineering Education
    Currently 100% of the Universities that offer structural 
engineering degrees in the U.S. require that their students take steel 
and concrete design but less than 50% even offer a timber design course 
and if they do it is usually an elective. This may have made sense when 
wood was only used in single family homes but with the advancement of 
the building codes to the point where the International Code Council 
now allows up to 18 story multifamily and commercial structures with 
mass timber, there is a serious knowledge gap that WoodWorks is filling 
to make sure architects, engineers and general contractors have the 
resources they need to successfully build these projects.
Conclusion
    We are a small program, but we are also nimble which allows us to 
meet the needs of this quickly evolving innovative wood product market. 
Having the support of the agricultural check off program and the U.S. 
Forest [S]ervice has been critical to our success in meeting the needs 
of this quickly evolving industry.
    Supporting mass timber means supporting a building solution that:

  1.  Reduces the environmental impact of the built environment by 
            sequestering carbon.

  2.  Provides a sustainable and competitive option for developers.

  3.  Creates a healthy and desirable work and learning environment for 
            occupants.

  4.  Increases and improves rural jobs.

  5.  Improves the health of our forests by creating an economic 
            incentive for landscape restoration [related efforts].

    I would love to see our legislative leaders take the lead by 
committing to build several government structures more sustainably by 
using mass timber. It does not need to be preferential treatment of one 
material over the other, just a level playing field that encourages the 
consideration of materials that historically have not been given an 
opportunity to compete. I hope you will consider encouraging government 
structures in your states to consider mass timber and just know that 
WoodWorks is here to help those design teams if they need it for no 
cost.
                              attachment 1
Case Study_Candlewood Suites<SUP>'</SUP>
Construction Advantages Sell Hotel Developer on CLT
CLT builds faster and more safely with fewer workers
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    From the outside, it looks similar to the thousands of other hotels 
built across the country in 2015. But when you learn that this project 
was completed 37 percent faster and the structure built with 44 percent 
fewer person hours than similar hotels, it warrants a closer look.
    Developer Lendlease used cross-laminated timber (CLT) to build the 
four-story, 62,688'\2\ Candlewood Suites<SUP>'</SUP> hotel at Redstone 
Arsenal, a U.S. Army post near Huntsville, Alabama. Completed in 
December 2015, the project exemplifies one of the biggest benefits of 
CLT-construction efficiency.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The 92-room structure, the first hotel built in the U.S. using CLT, 
is part of the Privatization of Army Lodging (PAL) program, a 50 year 
public-private partnership between the U.S. Army and Lendlease, a well-
known international development company. PAL is designed to provide 
quality private-sector hotel lodging for soldiers and guests on U.S. 
Army installations and joint bases. Along with this property, Lendlease 
owns PAL hotels on more than 40 military installations. The hotels are 
operated by IHG<SUP>'</SUP>, the InterContinental Hotels Group.
    Lendlease is no stranger to CLT construction. In 2012, the 
company's Australian office built Forte, a ten-story CLT residential 
building in Melbourne. Even so, the decision to use CLT on this U.S. 
project was not automatic. As owner, developer, design-builder and 
asset manager for all lodging in the PAL program, Lendlease has built 
the majority of its new hotels with conventional steel stud framing. 
So, before Jeff Morrow, Program Manager for Lendlease, could convince 
the team to use CLT for the Redstone Arsenal property, he thoroughly 
researched the idea and presented the potential opportunities of using 
CLT for this commercial application.
    ``As an architect, I was initially skeptical of the concept,'' said 
Charles Starck, Senior Architect/Design Manager of Project Management 
and Construction at Lendlease, ``but the more I learned, the more I 
realized this could be a game changer. It's not often that an architect 
gets a chance to get in on the ground floor of something that's going 
to have such a profound impact on the industry. Once I realized what 
fundamental change we could affect with CLT and heavy timber, I was on 
board.''
Constructability
    Ease and speed of construction are two of the greatest advantages 
afforded by the CLT building system. The Lendlease team not only 
erected the structure 37 percent faster with 44 percent fewer person 
hours than their typical hotels, they did so using just an 11-person 
crew--three experienced carpenters and eight laborers. The laborers 
were formerly unemployed veterans who were trained at the Redstone 
Arsenal jobsite.
    Construction speed was increased mainly because CLT panels arrive 
prefabricated, which greatly improves efficiency. ``Coordination with 
the CLT supplier allowed us to control the sequence; the trucks arrived 
loaded with panels in the order we needed them,'' said Bill Tobin, Vice 
President and Master Superintendent at Lendlease.
    Crews were also able to work through everything an Alabama winter 
could dish out. ``We worked in the rain almost half the time,'' added 
Tobin. ``That's the beauty of CLT construction: we could work safely in 
almost any condition and in all types of weather. We just made sure to 
measure moisture content of the wood before applying finishes to the 
structure.'' Most CLT manufacturers will provide a sealant on panel 
edges and often on the faces. Because the end grain of the lumber is 
not taking the brunt of the weather exposure, CLT panels do not readily 
absorb water that can accumulate during construction.
    Jobsite safety was another benefit, said Tobin. ``Lendlease is 
extremely safety conscious. CLT panels allowed us to erect walls 
quickly and safely, with very few crew members working in the radius 
and swing fall of the crane.'' Erection crews assembled safety devices 
and handrails to panels while they were still on the ground so, as each 
connecting floor panel was lifted into place, the area was immediately 
safe for workers. Once the floor deck was installed, crews enclosed the 
exterior of the building before coming back to install the interior 
walls. This allowed them to eliminate the potential for falls from 
elevated heights to the exterior as quickly as possible. The approach 
enabled the team to safely install almost 400'\2\ of floor every 20 
minutes with just three workers.
    The fact that eight members of the crew could be trained on site 
opens far-reaching possibilities for Lendlease. In fact, the industry's 
shrinking skilled labor force favors CLT construction. A 2015 survey of 
construction personnel executives \1\ warned that labor shortages could 
slow future construction; 24 percent of respondents said they would be 
unable to bid more work and 32 percent said they would experience slow 
growth if their companies could not reasonably meet the need for 
skilled labor and tradespeople. ``It is definitely becoming harder to 
find people to build,'' said Morrow. ``CLT gave us the opportunity to 
build this quality building with fewer people.''
---------------------------------------------------------------------------
    \1\ Wilson, K. and P. Warner, FMI, Craft Labor Recruiting and 
Retention 2015 Survey Report.

                      The Case for CLT Construction
------------------------------------------------------------------------
                              Typical New      Redstone
       PAL Portfolio           PAL Hotel       Arsenal       Difference
                               (Actual *)      (Actual)
------------------------------------------------------------------------
   Gross square feet (sf)          54,891         62,688           +14%
   Average # of employees    18 (peak 26)   10 (peak 11)           ^43%
Structural duration (days)            123             78           ^37%
  Structural person hours          14,735          8,203           ^44%
Structural production rate/        460 sf         803 sf           +75%
                       day
         Overall schedule       15 months      12 months           ^20%
------------------------------------------------------------------------
* PAL New Build Hotel Historical Average.
Source: Lendlease.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Project Overview
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Candlewood Suites at Redstone Arsenal
    Location: Redstone Arsenal, AL
    Owner: Lendlease <bullet> New York, NY
    Architect: Lendlease <bullet> Nashville, TN/Leidos <bullet> St. 
    Paul, MN
    Project Engineer: Schaefer Structural Engineers <bullet> 
    Cincinnati, OH
    CLT Engineer and Fabricator: Nordic Structures <bullet> Montreal, 
    Quebec
    General Contractor: Lendlease <bullet> Nashville, TN
    Completed: December 2015
Cost Considerations
    Since Lendlease owns and is responsible for maintaining the 
Candlewood Suites at Redstone Arsenal, ongoing cost was a key 
consideration. ``In the past, we've used light-gauge metal stud framing 
for the hotels on military installations,'' said Morrow. ``We cost-
modeled the CLT system against data collected on our buildings 
constructed with metal studs and found we could save with the CLT, 
mostly because we were able to frame the building so much faster.''
    The cost analysis was not an apples-to-apples comparison. Labor 
costs were higher at Redstone Arsenal than at some other military 
installations, which further added to the advantage of CLT for this 
project. ``CLT was a more expensive material but installation was 
faster, so we thought this project would be our best opportunity to 
take advantage of CLT's overall cost effectiveness compared to 
traditional framing materials,'' Morrow said. ``In addition, Lendlease 
will realize additional hotel revenues from the earlier completion, 
which is another benefit of using CLT.'' Faster construction results in 
lower capital costs and quicker hotel occupancy.
    While some designers choose CLT out of a desire to expose the wood 
structure to the building's interior, that was not the case for this 
hotel as it has no exposed wood. The design team made this decision in 
part so Lendlease could simplify the approval process, but also to meet 
IHG's aesthetic brand. With a Type IIIB structure, wood exposure is 
possible but would have changed the methods for proving fire 
resistance. ``Some in the industry think that CLT is best used for 
pretty, wood-focused applications. However, it can be just as effective 
for core and shell structural systems, even when it is buried in 
finishes and clad, because it is easy, simple and speedy to install,'' 
said Tobin. ``Redstone taught us that CLT has a place in the market for 
non-exposed, utilitarian applications.''
    Starck agreed, saying, ``We've proven at Redstone that CLT can be 
made to work economically in the high end of the low- and mid-rise 
sectors. Because this represents a large percentage of construction, 
this is where we can make some serious changes in how we build 
buildings.''
Mass Timber Structure
    As is typical of a mass timber structure, the four-story, 
rectangular slab-on-grade hotel used CLT for all exterior walls, 
parapet walls, interior walls, elevated floor slabs and roof deck. The 
structure also utilized glulam columns and beams.
    While thicker CLT can span up to 25' without beams or columns, the 
3\1/8\" thick roof panels of this Candlewood Suites spanned 16\1/2\'. 
In a CLT structure, floors can rest directly on columns without 
intermediate beams at panel edges because of the bi-directional 
capacity afforded by CLT's cross-lamination. Redstone's floor panels 
were 7" thick and walls came in a variety of thicknesses, with 3" and 
4" thick interior and demising walls and 4" thick exterior walls. Wall 
height at each level was 10\1/2\'. The entire stairwell assembly--
including shaft walls (which were protected with gypsum to meet the 2 
hour fire-resistance requirement), stringers, treads, risers, support 
beams and landings--was composed of CLT and glulam.
    Altogether, the project used 1,557 CLT panels, 11 glulam columns, 
44 glulam beams and more than 200,000 CLT fasteners. The sizable number 
of fasteners was due in large part to the military's blast resistance 
requirements and is not typical for most CLT construction.
CLT's Sweet Spot
          Use of CLT makes the most sense when a project faces at least 
        three of four common conditions.
        [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
Building Design
    Energy efficiency, moisture and sound protection are always 
considerations for quality builders. But they were especially important 
on this project since the builder, Lendlease, is also the owner of the 
hotel.
    ``Like most architects, moisture concerns keep me up at night,'' 
joked Starck. ``I would rather be able to sleep well, so we took a few 
simple steps to keep things dry inside.''
    As with all multi-story wood construction, the team had to consider 
shrinkage and swelling due to fluctuations in environmental conditions. 
``But shrinkage was a not a major concern for this project,'' said Doug 
Steimle, P.E., Principal at Schaefer Structural Engineers. ``CLT 
shrinks very little in any direction since most of the shrinkage in the 
wood has taken place during the drying process, prior to panel lay-up. 
This reduces the potential for any further dimensional changes once the 
panels are in place.''
    They also had to consider the differential movement between CLT and 
other materials. This Candlewood Suites featured a full-height, four-
story concrete brick veneer with a continuous drainage plane behind the 
cladding. ``To overcome the prescriptive limits for the height of the 
brick veneer, we used an engineered concrete brick product that is 
self-supporting up to 85','' said Steimle. ``This means we didn't have 
to support the brick at each floor, which would have complicated the 
building envelope design.''
    Typical detailing includes supporting the brick at each floor 
level, increasing the number of possible locations for bulk water 
intrusion. The advantage of supporting the brick at each floor is that 
shrinkage can be isolated at each level and doesn't accumulate at the 
top of the structure. ``But not supporting brick at each floor 
typically forces us to address the cumulative change between the wood 
structure and the brick veneer at either the top or bottom of the full-
height wall, which is not always easy,'' continued Steimle. ``Because 
there was so little wood shrinkage, this was not a difficult task with 
CLT. The anticipated differential movement for the four-story wall was 
less than \1/4\".''
    They also installed a weep and vent system to ensure air 
circulation behind the cladding. The continuous brick veneer allowed 
them to maintain the drainage plane from top to bottom without being 
interrupted by shelf angles attached to the structure at every floor. 
``That was unusual,'' said Starck. ``You don't see a lot of buildings 
with a continuous drainage plane like that. Our goal was to make sure 
that any condensation which does get into the envelope has free passage 
down to [the] weep holes, where it can exit the system.''

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                             Force Protection
    Candlewood Suites at Redstone Arsenal required extensive design
 collaboration between Lendlease and the U.S. Army Corps of Engineers
 Protective Design Center (USACE PDC). Because it is located on a U.S.
 military base, the structure needed to meet Anti-Terrorism and Force
 Protection (ATFP) standards. Since CLT is not listed as a conventional
 building type for meeting ATFP standoff, blast resistance and
 progressive collapse, the design team needed to seek approval from the
 USACE PDC. Lendlease, their design consultants and the CLT manufacturer
 supplied extensive engineering analyses to prove compliance with the
 standards.
------------------------------------------------------------------------

 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
 

------------------------------------------------------------------------
 
-------------------------------------------------------------------------
                               CLT Overview
    CLT is an innovative engineered wood product originally developed in
 Europe, but gaining popularity among North American building designers.
 It can be used for walls, floors and roofs of both residential and
 commercial structures. CLT panels consist of layers of dimension lumber
 or structural composite lumber (SCL) glued together under pressure with
 the grain of the boards in one layer running perpendicular to the grain
 in adjacent layers. CLT is typically manufactured in three-, five-,
 seven- and nine-ply panels up to 10 wide and 64 long, and then cut to
 exact specifications. Panels are engineered for specific use in a
 building and can be pre-cut with window and door openings.
    CLT is dimensionally stable and strong, creating an effective
 lateral load-resisting system. Panels perform exceptionally well in
 multi-story applications.
------------------------------------------------------------------------

    Tobin added, ``We didn't use intermediate weeps or drains except 
around the flashing details of windows and penetrations. We used the 
mechanical flashing plus a peel-and-stick counter flashing as well as a 
fluid-applied membrane.''
    Energy efficiency was also important to Lendlease. By design, CLT 
systems are intended to provide a tighter building envelope with less 
air infiltration than conventional light-gauge steel framing. CLT 
panels for the hotel were manufactured to a tolerance of less than \1/
16\", which is far tighter than anything that can be achieved in the 
field using conventional construction and materials. ``I think quality 
control was much easier to manage in this building,'' said Tobin. ``It 
was simple to train the crew on correct installation and, since the 
panels were true, it gave us a tighter core and shell.''
    To further improve energy performance, Lendlease installed 1\1/2\" 
of mineral wool as continuous insulation. The high R-value and 
airtightness of this system reduced the size of the HVAC equipment 
required to heat and cool the building. Lendlease projects that the 
Redstone Arsenal Candlewood Suites will be 31 percent more energy 
efficient than previously-built PAL hotels of similar size. In 
addition, the hotel achieved LEED Silver certification.
    Sound control is also critically important in hotels. On its own, 
CLT could not meet IHG's acoustical requirement between units. However, 
field testing showed that the CLT floor and wall assemblies used at 
Redstone Arsenal produced a Sound Transmission Class (STC) rating 
substantially greater than that required by code. ``The building code 
requires a minimum 50 STC between units, but our hotel operator 
requires an STC of 55 so that is what we designed for, using an 
assembly engineered by an acoustical consultant,'' Starck said. ``After 
we completed construction and had our assemblies in place, we did some 
field testing. Our lowest Field Sound Transmission Class (FSTC) for the 
wall came in at 63. The CLT floor assembly achieved a Field Impact 
Insulation Class (FIIC) rating of 74, which was also substantially more 
than the Impact Insulation Class rating of 50 required by code.'' Field 
tests typically yield results which are one to three points lower than 
laboratory tests. The high FSTC rating demonstrates that this CLT 
assembly has better sound absorption qualities than originally 
determined by theoretical analysis.
Interior Wall and Floor Assembly
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Source: Lendlease.

    One of the issues of CLT design is choosing where to run conduit 
for electrical, HVAC and other utilities. Rather than routing out the 
CLT panels, the design team decided to run 1\1/2\" furring strips on 
the inside of the assembly, adding additional insulation in the cavity 
and supporting a gypsum board finish. A \1/4\" air gap between the CLT 
and furring wall allowed conduit to fit between the gypsum board and 
the face of the CLT panel.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

    Understanding the Fire Performance of CLT
          Candlewood Suites at Redstone Arsenal was designed and built 
        to IBC 2012, Type IIIB construction, R-1 occupancy 
        (hospitality), and was also required to comply with the Unified 
        Facilities Criteria (UFC), which incorporates the requirements 
        of the IBC plus Department of Defense-specific and anti-
        terrorism provisions. While it is standard that all Candlewood 
        Suites be sprinklered regardless of height and area, fire 
        resistance was still a consideration because of both the 
        occupancy and requirements of the construction type.
          While it has been used in Europe for more than 20 years, CLT 
        is still relatively new to North America and was not an 
        approved structural material under the 2012 IBC. To use CLT at 
        the Candlewood Suites hotel, Lendlease took advantage of 
        Section 104.11, Alternative Materials, Design and Methods of 
        Construction and Equipment, of the 2012 IBC. Using this code-
        approved procedure, Lendlease had to prove that the building 
        had structural, fire protection and seismic resistance 
        equivalent to the prescriptive requirements of the building 
        code; this required extensive engineering analysis and rigorous 
        design methodologies. Since fire-rated assemblies for CLT did 
        not exist in the IBC, Lendlease used the Calculated Fire 
        Resistance provisions of IBC Section 722, to determine assembly 
        fire-resistance ratings.
          A great deal of research is available on the fire performance 
        of CLT and other mass timber products. For example, the 
        American Wood Council (AWC) conducted a fire-resistance test on 
        a load-bearing CLT wall in 2012, which contributed to the 
        inclusion of CLT in the 2015 IBC. Conducted in accordance with 
        ASTM E-119-11a (Standard Test Methods for Fire Tests of 
        Building Construction and Materials), the test evaluated CLT's 
        fire-resistance properties. A five-ply CLT wall (approximately 
        6\7/8\" thick) was covered on each side with a single layer of 
        \5/8\" Type X gypsum wallboard and then loaded to 87,000 
        pounds, the maximum load attainable by the testing equipment. 
        The 10x10' test specimen lasted 3 hours, 5 minutes and 57 
        seconds--well beyond the 2 hour goal.
          More recently, AWC sponsored two demonstration fire tests \2\ 
        of typical residential occupancies. The test compartments were 
        8' 7" high, with a footprint of approximately 6x12'. One 
        compartment was made with CLT walls and ceiling, and the other 
        with CLT walls and a nail-laminated timber ceiling; both were 
        fully protected with gypsum wallboard. After approximately 180 
        minutes of burning and temperatures reaching 2,000 F, the 
        gypsum was removed. The structural wood had remained below char 
        temperature throughout the test, demonstrating that protected 
        mass timber can provide adequate fire performance in 
        residential construction, even under the extreme scenario in 
        which automatic fire sprinklers fail and fire service is unable 
        to respond quickly.
---------------------------------------------------------------------------
    \2\ American Wood Council, Technical Data in Support of G165-PC2: 
NLT-CLT Compartment Fire Tests Summary, September 2015.
---------------------------------------------------------------------------
          For more information on CLT research, visit the mass timber 
        section of the reThink Wood website (www.rethinkwood.com), or 
        download the paper, CLT Research: Available and Accessible to 
        North American Building Designers.\3\
---------------------------------------------------------------------------
    \3\ Podesto, L. and S. Breneman, CLT Research: Available and 
Accessible to North American Building Designers--Wood Design Focus, 
Volume 26, No. 1, 2016, www.woodworks.org/wp-content/uploads/CLT-
Research_Podesto_Breneman.pdf.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

Advantages Add Up
    Quicker to build. Cost effective to construct. Quieter. More energy 
efficient. Easier and safer to erect. Environmentally friendly.
    CLT's advantages added up.
    Even with the additional requirements of blast protection, the 
Candlewood Suites at Redstone Arsenal demonstrates that CLT is an 
effective option for non-military hotels and other mid-rise projects.
    ``Utilization of CLT is an extremely collaborative process,'' said 
Morrow. ``A lot of the success with this project was due, not only to 
what Lendlease did, but also to the fact that we had some very 
competent, able and willing partners, including Nordic Engineered Wood 
and Schaefer, who were both willing to help us succeed. You can't build 
with new materials in a vacuum; you must have good partners along the 
way.''
    Morrow added, ``CLT gave us the opportunity to build a more robust, 
higher quality and higher performing hotel than we've built in the 
past. It's just better building.''
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Carbon Benefits
    Wood lowers a building's carbon footprint in two ways. It continues 
to store carbon absorbed by the tree while growing, keeping it out of 
the atmosphere for the lifetime of the building--longer if the wood is 
reclaimed and reused or manufactured into other products. When used in 
place of fossil fuel-intensive materials such as steel and concrete, it 
also results in `avoided' greenhouse gas emissions.

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

      Volume of wood products used: 935,696 board feet (equivalent)

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

      U.S. and Canadian forests grow this much wood in: 5 minutes

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

      Carbon stored in the wood: 1,276 metric tons of CO<INF>2</INF>

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

      Avoided greenhouse gas emissions: 494 metric tons of 
            CO<INF>2</INF>

            [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
            
      Total Potential Carbon Benefit: 1,770 metric tons of 
            CO<INF>2</INF>

    Equivalent To:

    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
      374 cars off the road for a year

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

      Energy to operate 187 homes for a year

          Source: U.S. EPA.
          Estimated by the Wood Carbon Calculator for Buildings, based 
        on research by Sarthre, R. and J. O'Connor, 2010, A Synthesis 
        of Research on Wood Products and Greenhouse Gas Impacts, 
        FPInnovations. Note: CO<INF>2</INF> on this chart refers to 
        CO<INF>2</INF> equivalent.
          Use the carbon calculator to estimate the carbon benefits of 
        wood buildings. Visit woodworks.org.

          Disclaimer: The information in this publication, including, 
        without limitation, references to information contained in 
        other publications or made available by other sources 
        (collectively ``information'') should not be used or relied 
        upon for any application without competent professional 
        examination and verification of its accuracy, suitability, code 
        compliance and applicability by a licensed engineer, architect 
        or other professional. Neither the Wood Products Council nor 
        its employees, consultants, nor any other individuals or 
        entities who contributed to the information make any warranty, 
        representative or guarantee, expressed or implied, that the 
        information is suitable for any general or particular use, that 
        it is compliant with applicable law, codes or ordinances, or 
        that it is free from infringement of any patent(s), nor do they 
        assume any legal liability or responsibility for the use, 
        application of and/or reference to the information. Anyone 
        making use of the information in any manner assumes all 
        liability arising from such use.
          WoodWorks Case Study WW-020 <bullet> Candlewood 
        Suites<SUP>'</SUP> at Redstone Arsenal
          <SUP><dbl-dagger></SUP> 2016 WoodWorks <bullet> Image 
        credits: (photos) Lendlease
                              Attachment 2
                        powerpoint presentation
714 Mass Timber Building Projects
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Blast Testing
Removing Hurdles and Opening New Markets
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

          Image Credit: USDA FS FPL/SLB/WoodWorks Live Blast Testing at 
        Tyndall Air Force Base http://www.woodworks.org/publications-
        media/blast-testing-research/.
          Working closely with partner organizations, WoodWorks 
        provides technical support to advance wood research in North 
        America. When Lendlease began considering mass timber for what 
        became the first CLT hotel on a U.S. army base, WoodWorks 
        initiated blast testing research and CLT is now included in the 
        military building code.
          The CLT blast testing shows just how strong this material can 
        be. It performed exceptionally well and Lendlease is now 
        utilizing CLT to construct Candlewood Suites hotels and guest 
        lodging at U.S. Army bases across the country. 
        [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
        
          Photos: LEVER Architecture.
        [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
        

    The Chair. Thank you very much, Ms. Cover.
    Dr. Henry, please proceed with your testimony.

STATEMENT OF JOSHUA A. HENRY, Ph.D., PRESIDENT AND CO-FOUNDER, 
                    GO LAB INC., BELFAST, ME

    Dr. Henry. Chair Spanberger, Ranking Member LaMalfa, and 
Members of the Committee, I am grateful for the opportunity to 
appear before you today to discuss the key role that innovative 
wood products can play in strengthening rural economies and 
promoting healthy forest management.
    My name is Joshua Henry. I am a materials chemist and the 
President of GO Lab, a building products company based in 
Belfast, Maine. Next year, our company will become the first in 
North America to manufacture a recyclable, renewable, non-toxic 
construction insulation made from softwood residuals, the 
byproduct of lumber production.
    I am thrilled to be here because our story is one that is 
going to need to become more common if rural communities and 
economies are going to be able to succeed. GO Lab started over 
4 years ago when my business partner, Matt O'Malia, and I 
realized that there was a suite of construction insulation 
products in Europe made from softwood fiber that were doing 
roughly $600 million in annual revenue, and yet not being 
manufactured anywhere in North America. The realization was 
both interesting and confusing to us because the technology to 
manufacture these products had been around for over 20 years, 
and had resulted in a renewable, recyclable, and non-toxic 
insulation that, from a performance and application standpoint, 
was a great fit for the North American building market.
    Matt and I did not intend to become manufacturers. At the 
time, I was a professor in the chemistry department at the 
University of Maine. Matt, an architect, had founded a company 
that designed and built the first certified Passive Haus 
building in Maine, 12th in the United States, and has since 
grown exponentially and achieved national prominence in the 
field of energy efficient building design and construction.
    We just wanted to answer one question: why had these 
products, which are both cost and logistically prohibitive to 
import, never been manufactured in North America? I am here 
talking to you today because there is no good answer to this 
question. In fact, what we have found out is that due to the 
cost of energy, raw materials, and labor in the United States, 
this suite of products can be manufactured and distributed here 
at a lower cost relative to Europe, and more importantly, can 
be cost competitive with all the other construction insulations 
on the U.S. market. That revelation led me to, somewhat 
prematurely, quit my job in academia and focus on bringing the 
technology to manufacture these products to the United States.
    The other substantial motivator was the challenging 
situation that has transpired over the last 4 years in Maine's 
forest products industry. During this time, six paper mills 
have closed and over 5,000 jobs have been lost, resulting in 
$1.5 billion in reduced economic impact in this sector. Maine 
is the most forested state in the country, and our forests are 
our greatest natural resource, and they are also a large part 
of our identity as a state. And Matt and I felt like we had a 
meaningful, achievable concept for bringing new economic 
opportunity, jobs, and sustainability to this critical 
industry.
    That was 3 years ago. Today, the demolition and renovation 
phase of GO Labs first U.S. manufacturing facility in one of 
those closed paper mills, the former UPM facility in Madison, 
Maine, is underway and at this time next year, that facility 
will be manufacturing the first of three wood fiber insulation 
composites.
    We have gotten to this point thanks to a substantial 
private equity raise, robust support from Maine's Department of 
Economic and Community Development, and grants from both the 
Environmental Protection Agency and the U.S. Forest Service. 
That support has allowed us to employ many of the top 
manufacturing personnel from that mill. Once up and running, 
our operation in Madison will employ more than 120 people, 
generate over $100 million in revenue, and will have introduced 
a new value-added manufactured forest product to the nation 
that will inevitably result in future plants in rural 
communities across the United States.
    In closing, I should note that our success, unfortunately, 
is not the norm. While there are many reasons for this, two 
have particularly stood out as an obstacle to attracting the 
investment that meaningful projects like ours require. The 
first is the migration of our nation's economy away from 
manufacturing. The second is the increased concentration of 
wealth in the hands of very few. While I could probably write 
you a treatise on each topic, I will simply note that both 
factors have the same effect: to diminish the pool of qualified 
investors that have the capacity, understanding, and interest 
in unleashing the dormant economic potential of our rural 
communities.
    Thank you for the opportunity to share our story.
    [The prepared statement of Dr. Henry follows:]

Prepared Statement of Joshua A. Henry, Ph.D., President and Co-Founder, 
                        GO Lab Inc., Belfast, ME
Introduction
    Chair Spanberger, Ranking Member LaMalfa, and Members of the 
Committee, I'm grateful for the opportunity to appear before you today 
to discuss the key role innovative wood products can play in 
strengthening rural economies and promoting healthy forest management.
    My name is Joshua Henry. I'm a materials chemist and President of 
GO Lab, a building products company based in Belfast, Maine.
    Next year, our company will become the first in North American to 
manufacture a recyclable, renewable, nontoxic construction insulation 
made from softwood residuals--the byproduct of lumber production.
The GO Lab Story
    I am thrilled to be here because I think our story is one that is 
going to need to become more common, if rural communities and economies 
are going to be able to succeed.
    GO Lab started over 4 years ago, when my business partner Matt 
O'Malia and I realized that there was a suite of construction 
insulation products in Europe-made from softwood fiber--that were not 
being manufactured anywhere in North America. That realization was both 
interesting and confusing to us because the technology to manufacture 
these products had been around for over 20 years and had resulted in a 
renewable, recyclable, and nontoxic insulation that--from a performance 
and application standpoint--was a great fit for the North American 
building market.
    Matt and I did not intend on becoming manufacturers.
    At the time, I was a professor in the chemistry department at the 
University of Maine. Matt, an architect, had founded a company that 
designed and built the first certified Passive Haus building in Maine 
(12th in the U.S.) and has since grown exponentially and achieved 
national prominence in the field of energy efficient building design 
and construction.
    We just wanted to answer one question: why had these products, 
which are both cost and logistically prohibitive to import, never been 
manufactured in North America?
    I am here talking to you today because there is no good answer to 
this question.
    In fact, what we have found out is that--due to the cost of energy, 
raw materials and labor in the United States--this suite of products 
can be manufactured and distributed here at a lower cost, relative to 
Europe, and most importantly, can be cost competitive with all of the 
other construction insulations on the U.S. market. That revelation led 
me to, somewhat prematurely, quit my job in academia and focus on 
bringing the technology to manufacture these products to the United 
States.
    The other substantial motivator was the challenging situation that 
has transpired over the last 4 years in Maine's forest products 
industry. During this time, six paper mills have closed and over 5,000 
jobs have been lost, resulting in $1.5 billion in reduced economic 
impact.
    The forests are Maine's greatest natural resource.
    They're a large part of our identity as a state.
    And Matt and I felt like we had a meaningful, achievable concept 
for bringing new economic opportunity, jobs and sustainability to this 
critical industry.
    That was 3 years ago.
    Today, the demolition and renovation phase at GO Lab's first U.S. 
manufacturing facility, at the former UPM Paper mill in Madison, Maine, 
is underway and at this time next year, that facility will be 
manufacturing the first of the three wood fiber insulation products.
    We have gotten to this point thanks to a substantial private equity 
raise, robust support from Maine's Department of Economic and Community 
Development and grants from both the Environmental Protection Agency 
and the U.S. Forest Service.
    That support has allowed us to employ three of the top 
manufacturing personnel from that mill. Once up and running, our 
operation in Madison will employ more than 120 people, generate over 
$100 million in revenue and will have introduced a new, value-added 
manufactured forest product to the nation that will inevitably result 
in future plants in rural communities across the U.S.
    That outcome is virtually assured by ongoing changes in code 
requirements for energy efficiency in buildings. Motivated by a desire 
to reduce the operational and environmental cost of our built 
environment--and to contribute to our shared national objective of 
energy independence--states and municipalities have adopted building 
codes, vetted by the U.S. Department of Energy that, on average, reduce 
the energy consumption of new buildings at a rate of 3% per year.
    But that reduction in operational energy consumption, achieved by 
the insulation that currently dominates the $11 billion U.S. market, is 
substantially offset by the energy consumed during the manufacturing 
process used to produce these products.
    The insulating wood composites GO Lab is bringing to market are 
different.
    They require minimal energy to make.
    As the only scalable insulation made from organic matter, wood 
fiber insulation has the unique ability to sequester carbon dioxide.
    The end result is a group of manufactured products with the unusual 
distinction of having an environmental footprint that is actually 
positive.
    Thank you for the opportunity to share our story.

    The Chair. Thank you very much for your testimony.
    This is such an incredibly exciting topic and I am grateful 
for you all being present here today. Members will be 
recognized for questions in order of seniority for Members who 
were here at the start of the hearing, and after that, Members 
will be recognized in order of arrival.
    I will begin by recognizing myself for 5 minutes.
    I am so excited to be holding this hearing today, and I 
thank you all for your enthusiasm on what I think to be a 
really fascinating topic.
    Mr. Goergen, I would like to start with you because in my 
notes, when you were talking, I was really just tremendously 
impressed by the possibility that exists when we are looking at 
cellulose technology. I am a mother of three children, and when 
you mentioned snack packs and replacements for snack packs, you 
might not have been able to see it from here, but my eyes lit 
up: so I am excited about that possibility.
    But I was wondering if you could speak at a little bit more 
length about two things: first, specific to my district in my 
state, we have talked about innovative wood products and how 
they can make more forest types economical. One of the most 
abundant tree species in my home State of Virginia is the 
yellow poplar, and while this tree species has many desirable 
traits, the market for hardwoods isn't as robust as some 
softwoods. Can you discuss some of the ways that nanotechnology 
could expand potentially options for hardwoods in places like 
Virginia? First portion of my question, and then my second is 
could you dive in a little bit more about the growth that you 
all are pursuing in Yreka, California?
    Mr. Goergen. Sure. Thanks for the question, and I am 
concerned about snack packaging too for my kids, both in terms 
of the impact on the world, but also the plastics that are in 
those containers that actually can transfer into the food as 
well. Those are the kinds of solutions that we are offering, 
and it is pretty exciting.
    When we look at yellow poplar as a potential source for 
nanocellulose, the great news is nanocellulose can be made from 
any material. It doesn't matter. We can make it from any tree 
species that is out there. There is a huge window for us, and 
what is really interesting too----
    The Chair. And has there been research in all different 
tree species at this point?
    Mr. Goergen. Yes.
    The Chair. Wow. Okay.
    Mr. Goergen. We have looked at hardwood, we have looked at 
western woods. Typically the easiest method to make 
nanocellulose is from paper, and you have paper manufacturing, 
of course, in Virginia. But, we can actually make it from raw 
wood as well, which we have demonstrated.
    The Chair. And can you make it from recycled paper, 
previously utilized paper?
    Mr. Goergen. Yes, yes, and we have done that, again, in 
this project in Yreka, California. I am glad you asked about 
Yreka.
    What is really interesting there is what we have done is we 
looked at the forests in California and we said, ``There is a 
huge problem here. There is no market for a lot of these 
materials. They are really low value. Can we take raw wood from 
Yreka and turn it into nanocellulose?'' We did that. We 
actually used some recycled fiber in combination with that as 
well, so we could demonstrate all those things at once.
    And what we are trying to do there is we are actually 
building a bridge deck that is completely made from 
nanocellulose. We have done it. We made the deck; we just need 
to install it and we are waiting for----
    The Chair. And when you are talking about bridge deck, you 
are talking about the actual bridge that cars and people would 
cross?
    Mr. Goergen. This is the full deck that they--people will 
drive over. In fact, actually it is a logging road, so logging 
trucks will drive over it. It is kind of a nice symbol for 
sure.
    But what is exciting about it is the whole community is 
behind this effort as well. They are really committed to trying 
to utilize that forest, figure out ways that they can bring 
real value to their town. And so not only are they excited 
about that particular bridge deck that we are going to put in 
for them, we are actually building a facility at their baseball 
field so that parents can actually sit at their baseball games 
and sit on a concrete pad as opposed to sitting on the ground 
or whatever. And they are going to build that with us out of 
cellulosic nanomaterial enhanced concrete.
    It is a really exciting project--we are really excited to 
be a part of it, and the whole effort is designed to do exactly 
what we are talking about today. How can we get more forest 
products into all kinds of applications that really matter and 
can reduce the environmental footprint that we have in the 
world right now? And products like mass timber and some of the 
things that we are talking about with cellulosic nanomaterials 
can actually do that.
    The Chair. And from your experiences, can you discuss the 
importance that Federal support plays in the development of 
these products? And I will open it up to all of you to comment 
on that.
    Mr. Goergen. There is no way that we would be where we are 
right now without the support of the USDA Forest Service. We 
often talk about how there are all these exciting new products 
that are coming to the market, and they are always 5 years out, 
right? And then 5 years comes around, and it is still 5 years 
out. Well, the work that we are doing, because we have the 
support of the Forest Service, we have grade A scientists that 
are doing this work. They have a pilot facility at the Forest 
Products Laboratory in Madison, Wisconsin that is making this 
material in quantities that we can actually use it in that 4 
trillion ton concrete industry. They are right there with us 
doing this work together. Without that government support, 
there is no way we would be there. And of course, without the 
private-sector we wouldn't be there as well. It is that 
marriage between us with all of us working together, we can 
actually take those steps forward.
    If we had more time, I would talk about what we are doing 
with FDA and how we are bringing companies together to actually 
solve that problem there as well. Exciting opportunities for 
the future, and it is only because of the collaboration between 
government and the private-sector and university researchers.
    The Chair. Thank you, and Ms. Cover and Dr. Henry, in the 
second round we will come back to you. But briefly, you would 
agree with his assertion that the Federal support is necessary?
    Ms. Cover. Oh, definitely, yes, the U.S. Forest Service has 
been an incredible partner on our journey. We would not be able 
to accomplish what we have done, both from an education 
perspective with the architects and the engineers, developers, 
general contractors, but also just on the way we have been able 
to open markets that were just previously not available to wood 
at all.
    The Chair. Fantastic.
    Dr. Henry. Yes, I would say we received a Wood Innovations 
Grant from the U.S. Forest Service last year, a Federal grant 
from the EPA, SBIR Development Program. We are working on the 
Wood Innovations Program with WoodWorks on adoption and code 
issues associated with our products, so it has been extremely 
helpful in bringing in a new product market.
    The Chair. Thank you.
    I now recognize the gentleman from Georgia, Mr. Allen, for 
5 minutes.
    Mr. Allen. Thank you, Madam Chair, and thank you for your 
insight this morning. I come from the construction world. I was 
in the construction business for 40 years before being a Member 
of Congress.
    From the standpoint of government involvement, most of the 
building codes are written by the government agencies. What 
progress have you made there on getting your products 
introduced, and of course, from a code standpoint, you have to 
meet certain requirements; and then also, the architects and 
the engineers are the folks that do the design work in the 
construction industry. Give me some background on your 
progress, and I will just give that question to all three and 
how your product is being developed. Because we do need to keep 
this free market. Price obviously has something to do with it 
as well, and you are competing with steel and concrete, so give 
me your sales pitch on that as well.
    Ms. Cover. Is it all right if I go first?
    On this topic in terms of codes, there has been extensive 
development on the code front. In the 2015 IBC cross-laminated 
timber, mass timber has included actually in the body of the 
code, and in the 2021 code, you will be seeing an adjustment 
for tall wood. It will allow for up to 18 stories with mass 
timber construction in the built environment.
    Mr. Allen. Will that be nationwide?
    Ms. Cover. That will be nationwide, yes. As the various 
jurisdictions accept the code, that is when it will come into 
play in each area of the country. There are a number of 
jurisdictions that are already pre-adopting it because 
engineers and architects are so excited to start moving forward 
with this building opportunity.
    We are providing assistance on over 70 projects right now 
that are over the current code limitations in the height. There 
is already extreme excitement before the code is even fully 
adopted, so that has been really exciting to watch.
    In addition of terms of progress being made, WoodWorks 
educates. We provide over 300 educational opportunities a year, 
and that allows us to award about 46,000 practitioner education 
hours every single year. It is incredible the number of people 
that we are touching, again thanks to the support of the Forest 
Service.
    And then in terms of cost and projects, since you come from 
a construction background, one of the things to note is that 
mass timber tends to be 20 to 30 percent faster to construct 
than alternate materials, and right now, the actual--if you 
look at just direct costs, there is a range. It is anywhere 
from five percent less than traditional materials up to ten 
percent premium to go with a mass timber solution, and that is 
for direct costs only. And the difference that you see there is 
generally due to whether or not the building was originally 
designed in mass timber. There is a lot of efficiencies that 
can be found if the building is set out with how you do your 
column lines, how you lay out your spans, based on the panel 
size themselves.
    Mr. Allen. Do you have span limitations more so than steel 
and concrete?
    Ms. Cover. Not necessarily. It depends on the loads that 
you are looking at for the particular building you are 
designing----
    Mr. Allen. I am sorry we are getting in the weeds, here, 
but----
    Ms. Cover. It just--I mean, there are limitations and the 
column lines, depending on the loads that you are dealing with 
might be slightly closer, but what we find is with exposed 
wood, it has a much more open feel. In a lot of these office 
spaces, even if the column line is maybe 3 less than it would 
be if it was a concrete column or steel column, you are still--
the room itself feels very open, and so there is a huge driver 
there.
    On the cost, one other thing just to keep in mind is that 
additionally, you have to look at the value. You have speed of 
construction that is much quicker, so there are savings there 
in cost in terms of construction loans, and you are also able 
to rent the buildings out quicker and generally at a premium. 
When a developer is analyzing this, they really look at the 
value, the overall value to the owner.
    Mr. Allen. Okay. Comments from Dr. Henry?
    Dr. Henry. I would just add to that that we come at it from 
the free market side. We have a design construction business. 
We built more CLT buildings than any firm in the State of 
Maine, and we recently completed a building in Connecticut that 
went up in 3 days. It gives you an idea of how this 
technology----
    Mr. Allen. Are you talking about structure?
    Dr. Henry. It was a residential structure.
    Mr. Allen. I got you.
    Dr. Henry. But the onsite construction of that building 
went up very quickly. It was a great success, also used all 
wood fiber insulation, unfortunately imported from Europe.
    As far as codes go, this product has been existent in 
Europe for over 20 years, as I said in my testimony. We know 
what the code challenges for insulation manufacturers--the 
challenge is really code adoptions. And so, advancing this sort 
of product and sort of wood products in general--I would say 
dimensional lumber manufacturing, it is important for us to--
for districts that that code adoption, which happens on the 
state level, to keep pace with the publishing of new codes.
    Mr. Allen. Okay. We will continue--I guess we are going to 
do a second round. Okay. I will continue--we will continue this 
discussion on the second round, but I need to yield back. Thank 
you.
    The Chair. Perfect. I would like to welcome Chairman 
Peterson of the full Agriculture Committee, who has just joined 
us, and we will continue with questions from my colleague from 
Arizona. Mr. O'Halleran is recognized.
    Mr. O'Halleran. Thank you, Chair Spanberger.
    Today's hearing focuses on an issue of great importance to 
northern Arizona. I am looking forward to discussing innovative 
forest products. These products are instrumental in building a 
restoration economy that provides sustainable jobs and improves 
forest health.
    The district I represent, Arizona's First Congressional 
District, includes all or part of six National Forests, each of 
which is filled with ecological beauty. They play an important 
role in Arizona's rural communities and our state's water 
supply. I have actively supported forest restoration policies 
for over 20 years.
    While in the Arizona legislature, I co-chaired the 
governor's Forest Health Oversight Council. Together, we 
produced a report with recommendations for stakeholders, local 
governments, the state, and Congress to maintain forest health 
and prevent natural disasters. Today, U.S. Forest Service's 
4FRI Initiative is the largest restoration effort in our 
nation. It serves as a testbed for innovation in forest 
management and efficiency development.
    Identifying a valuable use for biomass and low-value small 
diameter ponderosa pine remains the major issue to the success 
of 4FRI, and the establishment of a sustainable restoration 
economy.
    I remain optimistic that creative minds will develop--such 
as yours--efficient and sustainable uses for biomass and small 
diameter ponderosa pine so we can reduce the fire risk of 
Arizona's forests and improve the health of Arizona's 
watersheds.
    Ms. Cover, I heard that--when I was out in the meeting 
here, I heard that you mentioned ponderosa pine, so I am 
heading towards you for my first question. It burns through 
forest fires. We burn it in biomass. We try to find products, 
we ship it, and that is just beginning. There is so much we do 
with it, but as you know, it is a product that has its 
problems. I would like to hear your evaluation of what we can 
do.
    Ms. Cover. That is a great question. Thank you very much.
    The manufacturing standard for CLT is called PRG-320, and 
it is set up to allow for innovation. It is not limited to any 
specific species. Currently, in the U.S., we do have certain 
species that are more typical. You have Douglas fir, large 
spruce pine fir, and southern pine is your more typical species 
used in CLT, but it is not limited to those. There are only a 
few limitations in terms of the way it is graded that will 
limit what materials can be used.
    I am aware of one manufacturer that has already started to 
test ponderosa pine for use in CLT, and they are seeing really 
positive results. Assuming that that advancement moves forward, 
it would be a great opportunity for ponderosa pine in CLT 
materials.
    Mr. O'Halleran. Along those same lines, we have been trying 
to find those particular types of people. I am going to send 
our people to you to do some further investigation.
    But can you identify any specific areas that you think are 
the most important for us to pinpoint and identify for use? 
Because this is just millions and millions and millions of 
acres, and we have a density issue within the environment. We 
have distance issues as far as cost goes. And so, we are trying 
to identify how we are going to reach those levels of need in 
order to get that forest clear as far as being able to save it.
    Ms. Cover. Yes. We started to have some conversations with 
Chief Christensen in regards to what are some opportunities to 
connect these materials to the manufacturing facilities. That 
goes a little bit beyond what WoodWorks expertise is. We do the 
education and try to grow the market demand, but we are looking 
at ways that we can support the Forest Service in that effort 
to try to find that solution.
    As soon as we get the certification where it can be 
utilized in the material, then hopefully the market demand will 
drive it, and that will help in some of the increasing of the 
cost recovery efforts, in trying to get the material off the 
forest land and into these products. We are trying to work on 
the demand side and get it to the point where it is certified 
and able to be used, and then hopefully then that will help 
drive to make those connections.
    Mr. O'Halleran. And for the other two panelists, I would 
like your opinion on if the Forest Service has come to you and 
tried to identify the challenges of ponderosa pine?
    Dr. Henry. I would just say that the technology that we are 
bringing to the U.S. market, Mr. Allen talked about market 
solutions. This is--so far, our testing has been doing this. 
This is a softwood species that is species agnostic in terms of 
the technology and the implementation, so we look forward to 
our second plant in Arizona.
    I would just say that in terms of a market solution that we 
have tried to bring to Maine with our challenges is what really 
is needed for driving people to go into the woods, which is a 
challenge in Arizona as much as it is a challenge in Maine, to 
harvest that wood. You need value-added products. The 
importance of this meeting here today is to drive products that 
are more than just dimensional lumber that have such thin 
margins.
    Mr. O'Halleran. My time is over and I yield back. Thank 
you.
    The Chair. I now recognize my colleague from California, 
Mr. LaMalfa, the Ranking Member, for 5 minutes.

  OPENING STATEMENT OF HON. DOUG LaMALFA, A REPRESENTATIVE IN 
                    CONGRESS FROM CALIFORNIA

    Mr. LaMalfa. Yes, thank you, ma'am.
    This is a great topic today. I appreciate the panelists 
here. We, of course, have a lot of challenges with the whole 
forestry issue, especially in the West and my home State of 
California where it seems like if we are not burning \1/2\ 
million acres in a year, then we are having a light year. And 
at the same time as a country, we are the number two importer 
of wood products, I am just wondering what are we doing?
    The cross-laminated timber, that is an exciting technology 
we can move forward and more and more into nontraditional 
thought on construction. I know that we are going to have some 
perceptions, perhaps, with the regulatory side, with 
construction side, with certifications. I would like to hear 
just a little more from the panel on that. Also, a product 
called biochar, I have heard a little bit about that over the 
years, but it seems like there is just a lot of potential 
there.
    Bottom line for me is that more material we are getting out 
of the woods into some type of positive use, and as Mr. Goergen 
was talking about up there in Yreka, which is my home area, as 
you know, by the way, this is really exciting that we can 
change the terminology from Eureka whenever there is an 
invention made to Yreka, I have found. Eureka is on the coast; 
Yreka is in the upper central part by Oregon there. Let's get 
more Yreka going here.
    Anyway, I appreciate that.
    The situation of replacing steel and concrete more and 
more, how is that going to be met by--again, Mr. Allen was kind 
of talking about code enforcement, engineers, accepted--how 
long will that take to become an accepted, certified part of 
building code, for example? Mr. Goergen, and all three 
panelists?
    Mr. Goergen. On the code issues, Jennifer might be best to 
start.
    Ms. Cover. Perfect. In terms of codes, it has been accepted 
so it is already in the 2015 building code. It has been 
accepted and mass timbers called out in that building code.
    Mr. LaMalfa. How tall of a building can--are we talking 
about?
    Ms. Cover. That is within current code limits, which is 
85.
    Mr. LaMalfa. Eighty-five feet?
    Ms. Cover. Yes.
    Mr. LaMalfa. What is that in stories for us that----
    Ms. Cover. It is six to seven stories. But then with the 
2021 code, the adoption of that will go up to 18 stories. And 
California is one of the states that is looking at early 
adoption.
    Mr. LaMalfa. Okay. Now, a question that is going to come 
up--and I am sorry to bring it up. Every picture of an old 
building you see from 1880, 1890, isn't around anymore because 
always the story is there was a fire. And so, what are we--what 
can you build into this for fireproofing or at least fire--a 
higher level of fire resistance, because again--I mean, maybe 
it is an unfair question, but it is one that is going to be out 
there on the table by the general public.
    Ms. Cover. It is a very fair question. I am happy to 
address it.
    Really what is exciting about what took place with the 
testing and the research in order to go taller with wood is 
there was extensive requirements on the fire side in terms of 
fire safety testing. With the acceptance of these new code 
requirements, you have a much higher level of safety than is 
required historically on a lot of the different construction 
practices.
    One of the things that was done was a two-story apartment 
building was built, and five different tests were done. It was 
fully loaded so that you were simulating as if it was an 18-
story building, and it performed exceptionally well. A five-ply 
CLT panel in one of those tests was exposed to 1,800 F in the 
fire. It lasted for 3 hours and 6 minutes, which is much longer 
than the 2 hour code requirement. The results have been 
phenomenal. Mass timber burns differently than traditional wood 
materials, and that is why you can go taller with it, because 
it actually chars and then it protects that wood against 
further heat damage.
    If you think about when you are camping, you try to hold a 
lighter to a giant log, it won't ignite. That is the idea here 
is that it self-extinguishes because it creates a char layer 
once it does burn, and it protects itself.
    Mr. LaMalfa. Okay, thank you.
    Also, please, panelists, what I am looking at, too, is we 
have just--as was mentioned here--an overloading of material in 
our forests of an increased density and the market isn't always 
there for some of the lesser products. That is what is exciting 
about some of this, too. Do we see that we are going to use 
what is already coming out of the forests more intensely, or 
does this mean that we are actually going to be going in and 
getting a bigger net of all tree material, whether it is the 
less marketable stuff, less usable, or saw logs in conjunction 
with that? Are we going to get a net increase of material 
coming out of the forests?
    Mr. Goergen. Yes, I hope the answer to that question is 
both, right, so that we are better utilizing what we are 
already harvesting, and we are harvesting more, especially that 
problematic restoration requirement material that we need to 
remove from our forests. There is such a gigantic backlog of 
material that needs to be removed, and having markets to 
address that removal is critical to it.
    Mr. O'Halleran mentioned this from northern Arizona. You 
have lost so many mills in that area. When we lose the mill 
infrastructure, we lose the loggers, we lose all sorts of 
different parts of the system, and then we can't remove that 
material. These products are going to be able to help us 
restore the market pool that is going to help us actually 
manage those forests and remove more material from them over 
time.
    Mr. LaMalfa. So, you believe that it is an unknown right 
now then?
    Mr. Goergen. It is unknown to some extent, but I am very 
bullish on it. It is absolutely going to increase the amount of 
wood that we are removing from forests.
    Mr. LaMalfa. Thank you. I will come back in the second 
round. I appreciate it.
    The Chair. The chair now recognizes my colleague from 
Maine, Ms. Pingree.
    Ms. Pingree. Thank you very much, Madam Chair. Thank you so 
much. All of your testimony and questions answered have been 
really interesting, and I greatly appreciate having you here 
today.
    I will start with my hometown visitor. I think, because so 
many of us represent rural communities, we have a really good 
understanding of what happens when manufacturing jobs are lost. 
And when you lose an entire sector, as you mentioned, four 
mills in 6 years, that is staggering in a state of 1.3 million 
people, especially in the most forested state in the nation. We 
are just such a heavily dependent state on forest products.
    And so, really all of what you have been talking today has 
been really exciting in Maine, as some of these opportunities 
are opening up to us. Getting them from great idea university 
research to the end-stage of manufacturing, as all of you have 
attested, is really complicated.
    Perhaps, Dr. Henry, you could just talk a little bit more 
about the project you are doing in Madison, a town of 5,000 
people, and the impact this could have, and maybe some of the 
challenges of getting it to the stage of actually producing the 
materials next year.
    Dr. Henry. Yes, thank you.
    As Mr. Goergen mentioned, when something as traumatic as 
what happened in Maine over the last 4 years happened, the 
critically important thing, urgency to act at that point is to 
maintain that infrastructure. There are people whose jobs, 
whose livelihoods depend on that industry, and it is not a 
simple thing to just bring that back. Once it is gone, it is a 
much bigger investment to rebuild that infrastructure. That 
infrastructure dies because there are not value-added products 
that can enter the market effectively and support that 
manufacturing infrastructure. That is why what we are talking 
about today is so important is having innovative products that 
have the value-add that allows them to enter new markets and 
incentivize the investment in manufacturing infrastructure.
    As I mentioned in my testimony, I can speak directly to the 
challenge of getting investment into the manufacturing 
infrastructure and how difficult that is. But having value-
added products, having the whole stream of support that you are 
seeing here today is absolutely vital. The support for the 
government for research and development to develop those 
products and find new markets, that is what is necessary. If 
you want to solve problems like the challenge that you have in 
California or Arizona, there needs to be new products that 
enter new markets for wood products, otherwise, you are not 
building that new infrastructure.
    The project in Madison has been immensely gratifying to 
everyone on our team. The work that we have done with the 
community of Madison to bring that back, we have reemployed a 
number of the people who worked at that mill in designing the 
project. They have real ownership on a literal basis of our 
company in bringing that project together, and the state has 
really galvanized behind this project to make it happen, 
because they realize the critical need to act quickly when 
something like this happens.
    We immensely value the work that you do in terms of 
bringing funding to these projects and the work that all of my 
fellow testifiers here today do as well.
    Ms. Pingree. I will get a chance--we are going to have a 
second round, too. I am just going to follow up on all the 
other guys questions later, but I want to reinforce what my 
colleagues have said, which you did. I mean, one of the things 
we hear about a lot is this whole issue of both losing the 
infrastructure once the facilities are turned into something 
else or they are demolished, which has happened with some of 
them, you don't have that plant to rehabilitate and bring back 
the jobs. Also, the skills and training--not everybody wants to 
work in the woods. These are dangerous jobs. It takes a lot of 
training. It is expensive equipment to harvest wood today. The 
people who drive the trucks, every stage for the way, we hear 
about labor shortages and the challenges that are already 
coming up. Having a sense of urgency about how quickly we need 
to move on this. This isn't something we can kind of wait out 
into the future.
    I thought, since the Ranking Member mentioned it, it would 
be interesting for you to talk a little bit about. It is 
counterintuitive to think about an insulation material that is 
made out of wood products, because again, people think about 
fireproofing and how it even works. Could you just describe 
that a little bit and how and why it is going to be safe?
    Dr. Henry. Sure. This is a suite of insulation products. 
One of the exciting things is that it addresses all phases of 
the built infrastructure, interior insulation, exterior 
insulation, the batt product is a direct replacement for 
fiberglass. The board is a direct replacement for foam. These 
products, the board, for example, has a better fire rating than 
foam does. People have a perception of wood as being dangerous 
from a fire perspective, but if you talk to any firefighter, 
they would prefer a house made--residential construction--
constructed house made entirely of foam. The danger of fire to 
firefighters is really the--gassing of non-organic material to 
them. Really, it depends on what you are looking at, but our 
products meet all the safety code ratings for residential 
construction and small multi-family construction. There is no 
issue there. As CLT has faced, it is a perception issue. It is 
not a reality issue.
    Ms. Pingree. Great. My time is up, but thank you so much.
    The Chair. The chair now recognizes the gentlewoman from 
Washington, Congresswoman Schrier, for 5 minutes.
    Ms. Schrier. Thank you, Madam Chair.
    These are really interesting questions. Thank you all for 
being here today.
    My question, really is very similar to Mr. LaMalfa's, 
because we have, in many ways, similar districts. Washington 
State has this tricky combination of overgrown forests, too 
much fuel potential for these massive fires, a desire for 
cross-laminated timber, and a real market for it now that we 
can build up to 18 stories.
    But, we also have this crumbling infrastructure without 
mills, small diameter mills, and even the notion that even if 
we could do this and mill this locally, the transportation 
makes it cost-prohibitive.
    We have this kind of a forest health crisis coupled with 
the lack of mills, and I wanted to just paint a picture, which 
is the State of Washington has been losing mill infrastructure 
over the past few decades. A recent report from the Washington 
Department of Natural Resources showed that between 2006 and 
2016, the number of mills in my state declined from 137 to 88, 
down 36 percent. And in central Washington in particular, we 
have a really big gap in wood products infrastructure, and we 
also have about a 30 percent higher cost of construction that 
could be solved if we had local cross-laminated timber.
    In my district, forestland owners often have to truck their 
logs 150 miles or more to the nearest mill, making it 
impractical, increases cost, et cetera.
    And so, I am excited that we have companies in Washington 
State producing these innovative wood products, and I am 
excited to hear about the ones you talked about today. We have 
two new facilities doing cross-laminated timber in Spokane and 
in Colville, and I am wondering, looking at the practicalities 
here, wanting the smaller diameter trees pulled from our 
forests, knowing that we need these small diameter mills, and 
knowing that we need private industry to kind of partner with 
forestry. I was wondering if you have examples of partnerships 
between the U.S. Forest Service and private industry to fill 
these gaps? Whoever would like to answer that question.
    Dr. Henry. Sure. Yes, we work with the U.S. Forest Service 
on--we received a Wood Innovations Grant. Maine is a state in 
which most of the lands are privately owned, but we work 
intimately with dimensional lumber manufacturers. This is a 
technology that is totally complimentary to CLT manufacturing, 
two-dimensional lumber manufacturing. We use the residuals of 
softwood lumber production for our product, and--I am getting a 
little off target for what you are looking for, but you touched 
on a very key issue, which is transportation. We need to create 
sufficient markets for the investment in mill infrastructure. 
If you don't have the market there, it doesn't matter--well, 
nothing matters. If you don't have the market to sell the 
product, you can't invest full stop.
    As to code, I don't know if my fellow members here would 
agree, but from our perspective, code is essential to creating 
that market for an insulation product, keeping up with code. 
From the IECC Energy Code, that really it does two goods, which 
is it supports the wood products industry, and it also supports 
energy independence for our country. The built infrastructure 
uses about 30 percent of the energy that we use as a society. 
If we were to all implement code up to 2018 to the 2021 code, 
that would be a huge boon to the insulation industry, and this 
suite of products is a perfect fit for our 100 percent wood 
frame construction residential market.
    Mr. Goergen. Let me tell you a quick story, too, about the 
Forest Service and working with partners in Washington State. 
The Colville National Forest where Vaagen Brothers Timber--and 
I am sure you know them very well--there is a collaborative 
there that is working on solving some of the restoration 
challenges in that area. They are looking. They are saying we 
have to reduce these risks. This is environmentalists working 
with industry, working with a whole bunch of different folks, 
all coming together to try to solve these problems. And the 
Forest Service doesn't always have the funding that is 
necessary to conduct the environmental analysis that needs to 
be done, the archaeological studies that need to be done, et 
cetera, et cetera, et cetera. 
    This collaborative actually found ways--I don't know if 
they were doing bake sales for forestry or what they were 
doing, but they found ways to gather money together and pay for 
some of that up-front cost of the environmental analysis that 
was necessary to harvest timber to reduce the risk of 
catastrophic wildfire. They raised that money. The Forest 
Service went through the process. The Forest Service still made 
the decision, but the community came together, paid for the 
analysis, paid for the ideas behind it, reduced the cost to the 
government in some ways. They sold that timber. That timber 
actually paid for all the costs of that up-front analysis. At 
the end of the day, they reduced the fire risk, and that is an 
effective partnership between the Forest Service, the 
community, and industry. And we need to replicate that 1,000 
times throughout this country and we will start to solve some 
of these challenges.
    Ms. Schrier. Thank you so much, and thank you for pointing 
that out.
    The Chair. We will now begin a second round of questions, 
and I will begin by yielding myself 5 minutes for the first 
question.
    Dr. Henry, I appreciate the distinction that you and others 
have made between embodied carbon in the manufacturing process 
of materials used in constructing a building versus the 
operational carbon emissions once a building is in use. It is 
estimated that roughly 11 percent of global greenhouse gas 
emissions come from building materials and construction, and 
that the other 28 percent comes from the building operations.
    Can you explain why tackling the operational carbon 
emissions is also critical to reducing the emissions of the 
built environment, and how can innovative wood fiber insulation 
products like those made by GO Labs help to effectively reduce 
the carbon footprints of buildings?
    Dr. Henry. Yes, there is--so, thanks for drawing the 
distinction. There is energy expended in the manufacturing, 
obviously, of all building products and there is energy used in 
heating these buildings, and all of our built infrastructure. 
When it comes to operational energy, we are sort of experts in 
that. My partner, Matt O'Malia started this firm 10 years ago 
in 2008 at that great time for the building construction 
industry that focused on the ultra-energy efficient design and 
construction that could reduce energy consumption by 90 
percent.
    It is important to point that out because that 30 percent 
of energy consumption that we use as a society--everyone wants 
to talk about self-driving cars and battery technologies and 
things like that. That is a technology that could be 
implemented today to reduce our environmental footprint on 
society, but it has to be done very carefully. You see in the 
building industry an increasing push towards tighter buildings, 
so buildings that have a significant air sealing component to 
add significant amounts of insulation. But it is important to 
recognize that that is a living environment that--we are not 
just trying to reduce energy consumption. People have to 
actually live in those buildings, so there is actually not just 
energy flow, but mass flow through those systems as well. We 
shower in those buildings. We cook in those buildings. We 
produce a lot of moisture, and that moisture has to be 
breathing through those buildings. What is very unique about 
wood fiber insulation is that it transmits moisture better than 
any insulation product out there on the market today. You see 
with increasing building code foam products being strapped to 
the exterior of wood frame insulation buildings. In our 
opinion, that is a horrible idea. You are basically wrapping a 
building in cellophane, and that means that those are zero perm 
products, which means that they don't breathe at all. That 
moisture is going to get trapped up against that wood. It is 
going to contribute to mold and rot of our buildings. So, the 
endurance of buildings is less.
    It is a little bit counterintuitive to think of. We think 
of wood products manufacturing as an old industry, but these 
products are really the Gor-Tex, the future of building 
industry. They allow that product--just like you used to have 
these rubber rain jackets and you would run outside and you 
start sweating, and you are wetter on the inside than you would 
have been on the outside. Gor-Tex allows you to move outside 
and not trap moisture on the inside. That is what these 
materials are able to do.
    The Chair. Thank you for that explanation.
    I would like to bring it back for the remainder of my time 
to my district. I represent a central Virginia district. We are 
ten counties in total, majority land mass rural, forested land 
included, but we have growing suburbs. And in the suburbs, the 
area of town where I grew up used to be farmland. Now there are 
neighborhoods everywhere.
    My question for you is what--and I will start with Dr. 
Henry and Ms. Cover, and Mr. Goergen, you can join in as well. 
What is your vision for where these are being applied? Do you 
have a vision for this being in these suburban neighborhoods 
that are popping up and growing 100, 200, 1,000 homes at a time 
that we are using these technologies, or are we still focusing 
on individual house construction by interested parties and 
potentially large building structure by a developer who wants 
to use these technologies? Where do you see this going, and 
where would you love to see it in 5 years?
    Dr. Henry. I have two daughters under 5 years old. If I 
thought this was a niche product that we were bringing to 
market, I would not have quit my job. We fully expect this to 
be a $1 billion product and a mainstream product for the United 
States. It uses the residual products that the wood products 
industry needs to use to motivate getting people into the woods 
to harvest those products that are such a danger in terms of 
forest fire risk and things of that nature.
    I absolutely think this is going to be in every home, as 
you mentioned, across the nation. We anticipate it will all be 
GO Lab product.
    Ms. Cover. Yes, for mass timber, I would say the market is 
a slightly different focus in terms of it could be used in 
residential construction; but, as we were talking before in 
terms of the cost, where you are going to find it most cost-
effective is going to be in the commercial market. And when I 
mentioned the 17,000 buildings annually earlier, that is a 
commercial market. That is not residential.
    And where it will be--the sweet spot where it will work out 
for mass timber is likely going to be in that 17 to 18 story 
range. That is where right now there isn't a cost-effective 
solution when it comes to cost per square footage. If you look 
at our urban environments, you typically see that dichotomy of 
buildings that maybe cap out at six stories that are light 
frame construction, and then you get to 20 to 50+ stories of 
steel or concrete. Because typically, the alternative materials 
don't become cost-effective until 20 stories. Now you have a 
gap from seven to eighteen stories that now mass timber can 
fill. I think that will end up being--when we talk about cost, 
most likely where it will be most cost-effective.
    The Chair. Thank you very much.
    I will now yield 5 minutes to the Ranking Member, Mr. 
LaMalfa, for a second round of questions.
    Mr. LaMalfa. Thank you, Madam Chair.
    Just coming back to the usage of more and more biomass. We 
also, in my--south of Yreka in the area of Paradise, 
California, you have all heard of the situation there where 
there is still just hundreds of thousands of trees to be 
disposed of that are going to be a hazard. Either they are 
falling over or a fire hazard in the future. They are looking--
one group is looking at creating a pelletized fuel product in 
order to further the restoration going on from the Camp fire 
and the Paradise, Miguela, and surrounding areas up there. What 
do you think of that, panelists, of that as part of a solution 
on usage of these materials: partially burned, partially 
charred timber, et cetera?
    Mr. Goergen. The good news is that we can make these 
pelletized wood fuels from really low-value materials, and that 
is a terrific option for us in some places. The problem is 
cost, right, always. When you are competing with other fossil 
fuels, it is very difficult to make wood energy cost-effective.
    But, there are solutions. This one right here is actually 
torrefied wood, so this is wood that we have actually roasted 
in a low oxygen environment, and it turns into a black powder.
    Mr. LaMalfa. Is that basically biochar or something----
    Mr. Goergen. It is very similar to biochar. We can actually 
make biochar or we can make this pelletized fuel. We actually 
have a facility going in, in John Day, Oregon right now. It is 
going to start up in the spring.
    What is interesting about it is it turns into this black 
powder, or we can make biochar from it. And what we can do is 
densify it, and we actually fueled a coal-fired power plant for 
12 straight hours using a forest biomass product just like 
this. That plant required no changes whatsoever. Basically, 
what we did was we said here is a coal-fired power plant that 
is going to be decommissioned by the state because Oregon 
doesn't want coal-fired power anymore. We can use a wood 
product that has a huge environmental footprint throughout the 
entire West, and we can fuel it with this material. It is a 
really exciting project. It is a demonstration project that we 
have right now, but there are so many utilities across the 
world that are interested in this----
    Mr. LaMalfa. I bet you can't wait to tell me what the 
difference in emissions are from the coal versus that.
    Mr. Goergen. It depends on how you do the calculations and 
depends on who you talk to, but I mean, this is a very low 
carbon-intensity fuel, because it is a waste product, right?
    Mr. LaMalfa. What about other emissions? I mean, just 
percentages, concerns with----
    Mr. Goergen. There is no mercury, there is no 
SO<INF>2</INF>. It is a very, very clean fuel compared to any 
fossil fuel that is out there. And the other thing that is 
exciting about it is----
    Mr. LaMalfa. Because Arizona has a big problem. They are 
getting ready to close a plant if they haven't already, a large 
coal plant down that way.
    Mr. Goergen. Oh, they are slated all over the West right 
now.
    Mr. LaMalfa. Yes, many of them.
    Mr. Goergen. I mean, California is like the giant sucking 
sound in the evening, because they have so much solar power 
during the day and they pull in so much fossil fuel energy at 
night, and they want to eliminate that. This is how we can do 
it.
    Mr. LaMalfa. In my neighborhood, too, there are a lot of ag 
orchard, orchards are constantly being removed and changed out, 
so you have that as an issue. A lot of times, they are dealing 
with that by chipping. Is ag tree waste or even straw from 
fields, is that something that fits in with----
    Mr. Goergen. We can torrefy all that, including things like 
almond husks and those kinds of things as well. We can use 
those materials.
    Mr. LaMalfa. And open field materials, straw, things like 
that?
    Mr. Goergen. I don't know about straw so much, because it 
would burn too fast; but, a woody material would be no problem 
whatsoever.
    Mr. LaMalfa. And as far as turning into the nanofibers?
    Mr. Goergen. Again, nanofibers--you can make it from 
anything that has cellulose. The question is what is cost-
effective to make it, and again, we can make it from any kind 
of an ag byproduct, but it makes most sense out of wood.
    Mr. LaMalfa. Right, right. Okay, very good.
    Ms. Cover, would you like to touch on any of this?
    Ms. Cover. In terms of the application for mass timber, we 
are looking at wood products for the application here.
    Mr. LaMalfa. Right, and Dr. Henry?
    Dr. Henry. I would just say that you need a complete suite 
of manufactured materials to really incentivize investment in 
manufacturing and the wood products space. You need something 
like CLT, dimensional lumber manufacturing, and then you need 
products like ours that are based on the residuals from those, 
from the engineering of those materials and from the 
dimensional saw mills.
    Yes, you need all of these products. You need the pellet 
manufacturing, you need the CLT manufacturing, you need the 
insulation. And you need to create markets for those in order 
for the mills to be successful.
    Mr. LaMalfa. Right, long-term markets. Anything you wish to 
touch on, on Paradise's problem with, again, hundreds of 
thousands of dead and charred trees that could be incorporated 
into this thinking on a more immediate basis, too?
    Dr. Henry. Yes, so we actually participated in a venture 
competition in California that was supported by the U.S. 
Endowment for California in terms of finding new innovative 
ways to take those problem materials and turn them into value-
added materials. That was very helpful in terms of our company 
getting exposure to investors. More things like that need to 
happen to get these stories out there. This Committee is very 
helpful in terms of our exposure in terms of all of these types 
of start-up companies that need the exposure to investors, to 
people who are interested in solving problems in the wood 
products space.
    Mr. LaMalfa. All right. Thank you, panelists. I yield back.
    The Chair. The chair now recognizes the gentlewoman from 
Maine for 5 minutes.
    Ms. Pingree. Thank you very much. I have a couple more 
questions, although I could go on all day. So, thank you so 
much.
    In Maine, we have something called the Maine Mass Timber 
Commercialization Center, and it is an effort to bring some of 
the stakeholders together to talk about the economic potential 
of the forest economy. They are currently working on a life 
cycle analysis to compare cross-laminated timber construction 
to traditional steel and concrete. I know we have been talking 
a lot about that today. One of the challenges currently in the 
marketplace, besides general acceptance by builders and 
contractors, is also that we don't have a lot of standards 
right now that talk about carbon sequestration and building 
materials. But I fully expect, whether it is consumer demand or 
just how the codes change, we are going to see a lot more of 
that.
    Ms. Cover, I am just interested--you have talked a little 
bit about that, but do you think this is starting to change, 
that we are not going to keep overlooking the carbon 
sequestration benefits and can you just say a word about why 
that is so important in CLT?
    Ms. Cover. Yes, 100 percent. Operational carbon emissions, 
as we start to get more control over that, embodied carbon is 
really what is going to be the conversation. We see that 
shifting with the architectural community quite consistently, 
and one of the things is interesting is in foreign governments, 
there has been a lot of motivation to look at that embodied 
carbon impact. Vancouver, Canada, for instance, set a goal to 
reduce their embodied carbon in their new buildings by 40 
percent by 2030, and so, this is new. This is a shift. People 
are starting to recognize embodied carbon and the value of 
reducing that in the built environment.
    One of the things that may be suggested here in the U.S. is 
to consider benchmarking the carbon that is in the buildings, 
Federal buildings, for example, that are currently being built, 
and then set a target on how to decrease that carbon.
    Ms. Pingree. That is great.
    On a somewhat different topic, but it is related--I know in 
my state, it is related to one of the challenges that you were 
just mentioning about how you put together the whole package 
and have solid lumber and all these other products and make a 
deal that is interesting to investors. And I don't know exactly 
how this impacts California and some of the other states, but 
this deals with the RFS standards, so the renewable fuel 
standard. And I know in Maine, traditionally a lot of our paper 
facilities--paper mill facilities could use some of the 
byproducts to generate electricity. They were basically burning 
them.
    And so, when we talk about pellets or other ways to use 
some of the residuals, that is--it can be an important part of 
putting the package together.
    But, the way it is currently interpreted in the EPA rule, 
it is only accessible to plantation grown trees. A lot of what 
people have been talking about today, I don't think is grown on 
a plantation. That is pretty specific to some southern states, 
so it really cuts a lot of the forest industry out of this. And 
I know it is not even under our Committee's jurisdiction 
because it is an EPA rule, but do you guys want to make any 
comments about that? I just think it is maybe important for my 
colleagues to understand better that it is something maybe we 
should tackle together, because it is really critically 
important that we have a full package when we are trying to 
convince investors of this. Maybe you don't want to comment.
    Mr. Goergen. It is so important, and my colleagues have 
talked about this before, but that integrated system, right, of 
all the different products that we are producing from our 
forests. And these are very low margin businesses. We are not 
making a lot of money. Most of what we are talking about are 
really commodity products. The value-added products that 
Jennifer and Josh are talking about obviously bring more value, 
but we need those really low value systems as well so we can 
take advantage of the whole product, because the margins really 
are not there. Anything that helps and can make a significant 
impact, and those kinds of incentives really do help us make a 
go of it all.
    There are unintended consequences. You don't have to talk 
to Congress about that. You all know that better than most of 
us. But, the unintended consequences of adding a word in there, 
it may be a really good idea in terms of what we are trying to 
do, what we envision. But the on-the-ground consequences are 
significant. In this case, cutting off a lot of potential where 
we could actually have that marginal gain that would make a 
company actually viable versus 4 mills in 6 years.
    Ms. Pingree. Right, exactly.
    Dr. Henry. Yes, that is a very good point. I think that 
those low margins are extremely critical to the base of the 
manufacturing chain for wood products. The loggers that are in 
there in the woods, those margins, as Mr. Goergen explained, 
are extremely small for them. When something like 2008 happens, 
when four mills close down, that is the first impacted group, 
and the least flexible groups in terms of--and so, any 
standards that help to increase their margins, that is really 
where those small changes go to. And it is extremely--but it is 
an extremely critical link in the chain.
    Ms. Pingree. Thank you. I have run out of time, but if any 
of my colleagues are interested in understanding that standard 
better, it has been a real challenge for the Maine delegation, 
and we would love to work with anyone else who sees it as 
potential value for their state.
    So, thank you, Madam Chair. I yield back.
    The Chair. Thank you. The chair now recognizes the 
gentleman from Georgia for 5 minutes.
    Mr. Allen. In listening to the discussion, there are some 
things that this Congress can do. In fact, the 115th Congress, 
previous Congress, when we had the Majority, we worked on 
legislation to deal with forest management. Unfortunately, it 
was entirely partisan. The environmentalists fought it, and so, 
here we are in a situation where we can't seem to agree on what 
the solution is. But this Congress can do something about 
forest management.
    I would like to hear from you all, would you tell this 
Congress how important that is to get this done, and done 
quickly? I would like to hear from all three of you on that.
    Mr. Goergen. About \1/3\ of the country's forests are at 
risk of catastrophic events: either wildfire or insect and 
disease infestations. We have a significant challenge that we 
all need to meet together. This is not a partisan issue. This 
is not environmentalists versus industry. This is a real crisis 
in our forests that we need to attack.
    And so, the bottom line is we need a suite of solutions 
that include forest products, that include just flat out 
management, that includes supporting our logging 
infrastructure, that includes supporting family-wage jobs in 
rural America, which you all know how important that is, 
because a family-wage job in rural America is worth about 20 
family wage jobs in urban America. This whole suite of 
solutions needs to be addressed. And we know that we can do 
this work. It is a question of time and money. And if we 
actually create the markets, we can start to address some of 
those money issues. The time issues are a little harder, but we 
will get there.
    Congress can add some significant weight to this 
conversation, both in terms of reducing, not eliminating, but 
reducing some of the regulatory burden that makes it harder for 
the Forest Service to do their job. These are dedicated 
professionals that are out there managing these forests in 
pretty significant ways. The private-sector does a remarkable 
job of managing forests. They are not always perfect. Family 
landowners, sometimes it is hard for them, too. The Forest 
Service has some of the biggest challenges in this country 
because of the regulatory environment. If we could reduce that 
burden, it would be helpful, and if we could give them more 
money, it would be helpful.
    Mr. Allen. Exactly. Any others that would like to comment 
on this?
    Ms. Cover. Yes, I 100 percent agree with Mr. Goergen. Some 
specific tactics that would be helpful to building on what 
Michael mentioned would be definitely supporting the Forest 
Service in their ability to support programs like WoodWorks and 
the Wood Innovation Grants. I mean, that really is a catalyst 
for a lot of companies that are looking at being innovative in 
this space.
    Modeling in your individual states by encouraging projects 
to be built with mass timber that are the government 
buildings--in California, there has been a commitment to build 
three government buildings with mass timber, which is a 
fantastic move to be seen there to show some leadership.
    Also, in terms of looking at ways to benchmark and then 
target reduced carbon, embedded carbon in these structures is 
another approach, as well as competitions. Again, referring to 
California because that is my home state, we are about to 
announce a competition there in the state that the results of 
it for a mass timber building competition in the state, and 
that really motivates folks. We have six amazing projects that 
are going to be showcased as a part of that that are trying to 
really move the dial, and it shows that that is something that 
wants to be championed by the state and locally, and then that 
really helps architects and engineers want to engage. And then 
additionally, encouraging local code adoption in each of your 
states. I mean, that is something that is really important. 
There are some jurisdictions that are way behind on the code.
    Mr. Allen. Right, right. Dr. Henry?
    Dr. Henry. I would second the adoption of code. I would 
just point out one example. Unfortunately, in our area of a 
Federal building, which I believe is the Maine Veterans Home 
which is being built in Augusta, is being made of steel and 
concrete, and it doesn't have to be.
    Mr. Allen. Augusta, Maine.
    Dr. Henry. It doesn't----
    Mr. Allen. I am from Augusta, Georgia. There are two 
Augusta's in this nation.
    Yeah, and real quickly, just wanted to add about this, the 
sawmill problem. It is a trade problem. Timber is one of the 
largest industries in the State of Georgia. What do we do? The 
Chinese go in the sawmill business, so we start shipping whole 
logs through the Savannah port to China. Guess who bought our 
sawmills, rather than going out of business? The Canadians, 
because they have a massive insect infestation problem in their 
forests because of the problem with management, so they are 
coming to Georgia now and have bought our sawmills. Can you 
believe it? I mean, you can't make this stuff up.
    Anyway, thank you. It has just been great and yes, Congress 
needs to act. We need to get this done. There are lot of 
opportunities. Thank you very much.
    The Chair. I want to thank everyone for a productive 
hearing today. I especially want to thank our witnesses for 
their dedication to ensuring our nation's forests continue to 
drive the rural economy. Federal support for wood products is 
crucial if we want to ensure the success and sustainability of 
the industry. And for my part as a Representative from central 
Virginia, I will continue to look for ways to shine a light on 
the great work happening in this industry across the country. I 
look forward to seeing more of these innovative ideas prosper 
in the future in this sector, and I am so grateful for the time 
that you all have spent with us answering our questions. The 
conversation has begotten many additional questions, but I have 
found it to be a really intriguing conversation, and I am 
delighted by the work that you all are doing, and I am grateful 
for the time that you have spent with us here today. Thank you.
    Under the Rules of the Committee, the record of today's 
hearing will remain open for 10 calendar days to receive 
additional material and supplementary written responses from 
the witnesses to any question posed by a Member.
    This hearing of the Subcommittee of Conservation and 
Forestry is adjourned.
    [Whereupon, at 11:29 a.m., the Subcommittee was adjourned.]

                                  [all]
</pre></body></html>
